<html>
<title> - IMPLICATIONS OF A NUCLEAR AGREEMENT WITH IRAN (PART I)</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


. 
               IMPLICATIONS OF A NUCLEAR AGREEMENT WITH 
                            IRAN (PART I)

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 9, 2015

                               __________

                           Serial No. 114-79

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ____________
                                 
                                 
                     U.S. GOVERNMENT PUBLISHING OFFICE
95-422PDF                 WASHINGTON : 2015                     
____________________________________________________________________________

For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0760776847647274736f626b772964686a29">[email&#160;protected]</a>  
                                
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York<greek-l>
TOM EMMER, MinnesotaUntil 5/18/
    15 deg.
DANIEL DONOVAN, New York<greek-l>As 
    of 5/19/15 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Michael Doran, Ph.D., senior fellow, Hudson Institute............     5
The Honorable Stephen G. Rademaker, foreign policy project 
  advisor, Bipartisan Policy Center (former Assistant Secretary, 
  Bureau of Arms Control & Bureau of International Security and 
  Nonproliferation, U.S. Department of State)....................    12
Michael Makovsky, Ph.D., chief executive officer, JINSA Germunder 
  Center Iran Task Force.........................................    22
Kenneth M. Pollack, Ph.D., senior fellow, Center for Middle East 
  Policy, The Brookings Institution..............................    37

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Michael Doran, Ph.D.: Prepared statement.........................     8
The Honorable Stephen G. Rademaker: Prepared statement...........    15
Michael Makovsky, Ph.D.: Prepared statement......................    25
Kenneth M. Pollack, Ph.D.: Prepared statement....................    40

                                APPENDIX

Hearing notice...................................................    84
Hearing minutes..................................................    85
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    87


         IMPLICATIONS OF A NUCLEAR AGREEMENT WITH IRAN (PART I)

                              ----------                              


                         THURSDAY, JULY 9, 2015

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:07 a.m., in 
room 2172, Rayburn House Office Building, Hon. Ed Royce 
(chairman of the committee) presiding.
    Chairman Royce. The hearing will come to order.
    I will ask all the members to take their seats at this 
time. Today the committee continues to examine the Obama 
administration's nuclear diplomacy with Iran as we get set for 
a congressional review of a possible, and hugely consequential, 
agreement.
    As we speak, U.S. negotiators in Vienna face another 
deadline. While we don't have an agreement in front of us, we 
know the troubling outline taking shape. Just a few months ago, 
367 Members of Congress signed a letter, Ranking Member Engel 
and I led stating that any final agreement must last for 
multiple decades and include full disclosure of Iran's past 
efforts to build a nuclear weapon, must include a dramatic 
reduction in the number of centrifuges, and, most importantly, 
intrusive inspection and verification measures.
    A few weeks ago, several of President Obama's former 
advisers signed an open letter echoing these same concerns and 
warned that these negotiations may fall short of meeting the 
administration's own standard of a ``good'' agreement. Indeed, 
one witness with us today wrote back when these negotiations 
began, that a ``good enough'' agreement would have Iran giving 
up ``all but a minimal enrichment capacity,'' agree to 
intrusive inspections, and would be an agreement that could 
guarantee the reimposition of sanctions.
    But that is not even close to where the negotiations are 
right now. The ``most robust and intensive inspections,'' and 
this was the original goal, ``the most robust and intrusive 
inspections and transparency regime ever negotiated for any 
nuclear program in history,'' has morphed instead into an 
agreement of what is now discussed as ``managed access'' with 
the Iranians having a big say in where international inspectors 
can go, where international inspectors cannot go. ``Managed 
access'' is a big back away from the ``anywhere, anytime'' 
terms that the administration once demanded.
    But to be clear, under this agreement, Iran doesn't even 
have to cheat to be a few steps away from the bomb. Iran is not 
required to dismantle key bomb-making technology; it is 
permitted a vast enrichment capacity and it is allowed to 
continue its research and development to gain an industrialized 
nuclear program once the agreement begins to expire in as 
little as 10 years. That is hardly the original concept of 
``decades'' of a long-range agreement. And, frankly, it is 
hardly ``all but minimal enrichment'' that was the original 
goal as well.
    Meanwhile, Iran continues to develop its ballistic missile 
capabilities. After Iran's Supreme Leader called demands to 
restrict its missile program a ``stupid, idiotic expectation,'' 
in his words, U.S. negotiators backed off this key demand. 
Instead, Iran is still able to ``mass produce'' its ballistic 
missiles as the Supreme Leader has ordered. If you will recall 
his quote at the time, he said it is the responsibility of 
every military man to figure out how to help mass produce 
ICBMs. We ought to be concerned, really concerned about that 
attitude, and some of his additional suggestions about what he 
would like to do to the United States. One witness told the 
committee last month that, ``no country that has not aspired to 
possess nuclear weapons has ever opted to sustain'' a costly, 
long-range missile program. Already, U.S. intelligence 
estimates Iran to have the largest arsenal of ballistic 
missiles in the entire Middle East. Simply put, countries build 
ICBMs to have the capability to deliver nukes.
    Not to mention that the terrorist state of Iran will be 
flush with cash. Reportedly, Iran will receive somewhere in the 
range of $50 billion under this agreement upfront; $150 billion 
over the entire length of the agreement. Now, that would be 25 
times the annual budget of Iran's Revolutionary Guard Corps. 
Such a huge amount will breathe life into Iran's economy, but 
it will also fund a new generation of terrorism in the region 
and beyond. We should be worried when Iran announces, as they 
recently did, that they will help rebuild the tunnels in Gaza, 
that they will transfer missiles to Hamas, and recently that 
they will provide 100,000 rockets and missiles for Hezbollah 
with new technology which will allow precision guidance systems 
so that those rockets and missiles can hit targets across 
Israel.
    At every step in this process, whether it is enrichment 
capacity, missile development, or sanctions relief, the Obama 
administration has discounted the fundamental nature of the 
regime in Iran. ``Death to America'' isn't domestic spin in 
Iran--it is the regime's rallying cry. And tomorrow, on Friday, 
they will once again celebrate Quds Day. Since 1979, since the 
foundation of the revolution, that is the day they set aside to 
celebrate for the destruction of Israel.
    As one witness concludes, ``President Obama is agreeing to 
dismantle of sanctions regime--permanently. In return, Iran is 
agreeing to slow the development of its nuclear program--
temporarily.'' That is a bad deal for us: Permanent concessions 
in exchange for temporary benefits, and that is only if Iran 
doesn't cheat, like North Korea cheated. So Iran is left a few 
steps away from the bomb and more able to dominate the region. 
This is my take on this. How does that make us and our allies 
more secure or conflict less likely? That is the bottom line 
this committee will continue to look at. Few issues are more 
important. I now turn to the ranking member for any opening 
comments that he may have.
    Mr. Engel. Thank you, Mr. Chairman.
    Thank for your calling this hearing. And thank you for your 
steady leadership as we confront the problems of Iran's nuclear 
program. To our witnesses, thank you. Welcome. It is important 
that members hear views from across the spectrum as we play our 
part and weigh a potential deal.
    I have said from day one the devil is in the details. And 
until I know exactly what is in the deal, it is hard to comment 
on whether it deserves support or not. I have been troubled as 
I have said many times on the outset of these negotiations. 
Firstly, I have been very troubled that Iran was allowed to 
enrich and spin centrifuges while we are talking. I think it 
would have been a heck of a lot better if Iran was told if you 
want to have serious negotiations with us, while we talk, you 
stop enriching. But that wasn't done. And that is 
disappointing. I am told that Iran wouldn't agree to it. Well, 
does that tell you something about their motives at the outset? 
I am also disturbed that we are talking about Iran's nuclear 
capability. We are not talking about, as the chairman pointed 
out, all the destructive roles they play around the world as 
the world's leading sponsor of terrorism. Somehow or other, we 
are not really talking about that in these negotiations. We 
have four Americans in prison there. We had a hearing in this 
committee not long ago. I don't know, are they in limbo? What 
is the story? I think it is preposterous that our people are 
held hostage while we are negotiating with them.
    And the rhetoric still continues to come out. Syria, where 
hundreds of thousands of civilians have been killed and maimed, 
the Iranians prop up the Assad regime, Hezbollah, Hamas, you 
name it, Yemen, they have played negative roles. And so it is 
very, very troubling. And, again, the devil is in the details. 
I am glad that the reports are coming out that the 
administration is digging in its heels. A lot of people said 
that they would cave at the last minute on some of these issues 
because they wanted a deal very badly. I think that is being 
shown that it is not the case, and the Iranians are going to 
have to make some tough choices or else we are prepared to walk 
away. I have said from day one that we couldn't want a deal 
more than the Iranians. If that is the case, then they will 
just, again, dig in their heels.
    And so they need to want a deal, and they need to be ready 
to make tough concessions. The chairman pointed out some of the 
troubling aspects of this. There are a few potential 
implications of a deal I would like to touch on this morning. 
One of my serious concerns throughout this process is sanctions 
relief. Even if sanctions relief is gradual and conditioned on 
Iran's compliance with the deal, easing sanctions will 
eventually, as the chairman said, translate into a major 
financial windfall for Iran's leaders. Let's think about what 
that means.
    Even with sanctions in place, even with sanctions in place, 
Iran is still the largest state sponsor of terrorism in the 
world. Even with a crumbling economy, Iran spreads its 
destabilizing influence in Yemen, Syria, Lebanon, Iraq, Gaza, 
and among our Gulf allies. Iran's leaders have said they will 
use sanctions relief to help their people and shore up their 
economy. I will believe it when I see it. So Congress will need 
to play a role here. The House has already passed legislation 
to curb funding to Hezbollah, which is wreaking havoc in 
Lebanon and helping Assad cling to power in Syria. I hope the 
Senate will act on this measure. And however sanctions relief 
plays out in the Iran deal, Congress needs to make sure that 
our sanctions against terrorist groups remain robust and 
effective. That way, no matter what Iran chooses to do with its 
resources, we will have other measures to keep funding out of 
terrorist hands.
    The other issue I would like to address is how other 
countries across the region may respond to a deal. Iran is a 
nuclear threshold state. This leaves our ally Israel in a 
constant state of insecurity. Israel must always know we will 
have their back to deal with that challenge. We need to work 
with the Israelis, take a hard look at any outstanding concerns 
tied to this deal, and do whatever is necessary to ensure 
Israel's security.
    Likewise, for our friends in the Gulf, a nuclear arms race 
would create tremendous volatility in the region. Recently at 
Camp David, the administration heard from our Sunni Gulf allies 
about their concerns over Iran's behavior. This summit was a 
good start but more needs to be done. I hope our witnesses can 
shed some light on what steps might help shore up stability in 
the region in the wake of a deal. But I think we also have to 
consider, and I want to raise a question that I have asked 
again and again: If we don't get a deal, what are the 
alternatives? At this point, we all know the refrain, no deal 
is better than a bad deal.
    But let's see what the alternative would be. The 
alternative to a deal would surely mean some kind of military 
strikes on Iran's nuclear plants and would also involve 
sanctions. I think when we weigh whatever final deal there is, 
we have to weigh it with the alternative and see which 
alternative we like better. There are no good choices. But it 
is very, very troubling that Iran continues to do what it has 
been doing and that we hear negative things from the Supreme 
Leader talking about all kinds of nonsense that we could not 
accept in any kind of a deal.
    So we need to consider where we will find ourselves if 
these negotiations fail. We cannot accept a bad deal again, but 
we need to weigh the P5+1 proposal versus the alternatives. I 
look forward to hearing our witnesses' insights on these 
issues. And I thank them again for their testimony.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Engel.
    This morning, we are pleased to be joined by a 
distinguished group of experts. Dr. Michael Doran is a former 
Deputy Assistant Secretary of Defense and Senior Director at 
the National Security Council. He is currently a senior fellow 
in the Center for Middle East Policy at the Hudson Institution.
    Mr. Stephen Rademaker is former Assistant Secretary at the 
U.S. Department of State for the Bureau of Arms Control and 
Bureau of International Security and Nonproliferation. Mr. 
Rademaker is an adviser at the Bipartisan Policy Center and 
formally served as chief counsel at this committee. And we 
welcome him back.
    Dr. Michael Makovsky also served in the Pentagon where he 
advised senior officials on defense and energy policy in the 
Middle East. He currently heads the Iran Task Force at the 
Institute for National Security Affairs.
    Dr. Ken Pollack is a senior fellow at the Center for Middle 
East Policy at Brookings. Dr. Pollack served twice on the 
National Security Council where he focused on Iraq, Iran, and 
the Persian Gulf.
    Without objection, the witnesses' full prepared statements 
will be made part of the record. And members will have 5 
calendar days to submit any statements or questions or 
extraneous materials for the record.
    And, Mr. Doran, please summarize your remarks if you will.

   STATEMENT OF MICHAEL DORAN, PH.D., SENIOR FELLOW, HUDSON 
                           INSTITUTE

    Mr. Doran. Chairman Royce, Ranking Member Engel, members of 
the committee, thank you for inviting me today to discuss the 
strategic implications of the nuclear negotiations with Iran. 
With your permission, I will focus my remarks on the 
perceptions of America's Middle Eastern allies.
    For decades, our partners in the region have been divided 
among themselves on many consequential issues. But on one point 
they have all agreed: The importance of the United States as 
the guarantor of the regional order. They have also 
traditionally assumed that a primary duty of the guarantor was 
to orchestrate the containment of the Islamic Republic of Iran.
    However, President Obama's pursuit of the nuclear accord 
has convinced our allies that he has shed that duty. None of 
them believe that he has any inclination to contain the 
expansionist Iran. And some of them even fear that he supports 
Iran's ascendancy.
    Of course, the President is well acquainted with these 
fears. In recent months, therefore, he and his staff have 
labored intensively to convince the allies that the nuclear 
accord is, in fact, consistent with their defense needs. The 
Gulf Cooperation Council Summit at Camp David in May was a 
prime example of these efforts. Our allies, however, have found 
the administration's arguments utterly unpersuasive.
    Mr. Chairman, it is my intention here to do three things: 
To sketch some of the key concerns of our allies; to describe 
some of the arguments that the administration has made to meet 
those concerns; and then to explain why those arguments fall 
flat.
    Our Middle Eastern allies passed judgment on the Iran deal 
a long time ago. It is in their eyes a very bad deal. Israeli 
Prime Minister Bejamin Netanyahu has been uniquely vocal in 
expressing his disapproval. But his view is widely shared by 
his neighbors who, like Netanyahu, feel abandoned and betrayed 
by the United States. In my written testimony, I go into 
greater detail about the sources of those feelings. For the 
purpose of brevity here, suffice it to say that over the course 
of the nuclear negotiations, the allies have seen U.S. 
relations with Iran become increasingly friendly. They are 
certainly disturbed by President Obama's willingness to bless 
Iran as a nuclear threshold state. But they are equally 
unnerved by the lack of concern that he has demonstrated as 
Iran has flexed its muscles in Syria, Iraq, and Yemen. When 
viewed from capitals, such as Riyadh and Jerusalem, it appears 
that there is a hidden price to the nuclear deal, a price that 
will be paid by the allies more than anyone else.
    The United States appears to be tacitly recognizing an 
Iranian sphere of interest in Iraq, Syria, and Lebanon. Indeed, 
Washington has at times even publicly approved of Iran's 
expansionism. When, for example, Secretary of State John Kerry 
characterized Iranian combat sorties in Iraq as ``a good 
thing,'' his words were greeted with shock and anger throughout 
the Gulf. Israeli Defense Minister Moshe Ya'alon thus spoke for 
all of America's allies last week when he lamented that the 
United States now sees Iran as part of the solution, not the 
problem.
    Of course, President Obama is well aware of the fears that 
his policies are generating. And he and his advisers have 
crafted a number of arguments to quell them. These arguments, 
which my written testimony covers in some detail, all work in 
support of a simple thesis, that the comprehensive nuclear 
agreement with Iran will not undermine an American commitment 
to the allies' security. In fact, the administration is now 
claiming the deal can function as the first step in a new 
comprehensive regional strategy. The Camp David Summit, so the 
story goes, laid the groundwork for a new strategic partnership 
with the GCC states, a partnership that will speed arms 
transfers and increase cooperation on counterterrorism, 
ballistic missiles, and a host of other cooperative security 
ventures.
    In truth, America's Gulf allies have no confidence that 
President Obama will actually deliver on what they consider to 
be their vital needs. They are intensely aware that his 
understanding of the phrase ``Iran containment'' and their 
understanding of the phrase are entirely different. What they 
desire from the United States is a policy of rollback, a set of 
initiatives designed to drive Iran from Syria and Yemen, to 
challenge Hezbollah's monopoly over politics in Lebanon, and to 
weaken the role of Shiite militias in Iraq. They want the 
United States to lead a regional security system that will 
counter the Revolutionary Guard Corps at its favored game, 
subversion.
    By contrast, President Obama is offering tools and 
initiatives that will help the GCC states maintain stability at 
home and mount a collective defense against a conventional 
attack from Iran. The America approach, in other words, simply 
does not meet the threat as the allies actually experience it. 
In their eyes, President Obama is like a doctor who is 
prescribing heart medicine to a cancer patient.
    At the close of the GCC summit, President Obama went out of 
his way to make sure that his approach to containment would not 
be misunderstood. I want to be very clear, he said, the purpose 
of security cooperation is not to perpetuate any long-term 
confrontation with Iran or even to marginalize Iran.
    Our allies got the President's message loud and clear: The 
United States is out of the business of Iran containment as it 
has been understood in Washington for the last 36 years.
    Unlike the Israelis, our Gulf allies have chosen not to 
advertise their sense of abandonment and betrayal. Instead, 
they have chosen simply to go their own way, quietly. For 
example, Riyadh organized a coalition of Sunni allies that 
intervened in Yemen in order to counter the Iranian-backed 
Houthi rebels in that country. But the intervention was also 
meant to send a message to President Obama: If you won't 
organize the region to contain Iran, we will.
    To drive home the point, the Saudis gave Washington only an 
hour's notice before their intervention began. The Saudis and 
their closest allies will remain dedicated to contesting 
Obama's policies, albeit quietly. And they will continue to 
fight back against Iran and its proxies in Yemen, Syria, and 
Iraq.
    Meanwhile, the Iranians, flush with cash from the nuclear 
deal, with grow bolder and richer and more prone to 
intervention. The President's Iran policy, therefore, will 
deliver disequilibrium to the Middle East, the exact opposite 
of what the administration is claiming.
    Thank you again for inviting me to testify. It is an honor 
to speak before this committee on such a consequential topic.
    [The prepared statement of Mr. Doran follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Chairman Royce. Mr. Rademaker.

STATEMENT OF THE HONORABLE STEPHEN G. RADEMAKER, FOREIGN POLICY 
  PROJECT ADVISOR, BIPARTISAN POLICY CENTER (FORMER ASSISTANT 
  SECRETARY, BUREAU OF ARMS CONTROL & BUREAU OF INTERNATIONAL 
    SECURITY AND NONPROLIFERATION, U.S. DEPARTMENT OF STATE)

    Mr. Rademaker. Thank you, Mr. Chairman, Congressman Engel, 
members of the committee.
    It is a pleasure to be here again to testify on this issue. 
And it is a special pleasure for me to be here with Dr. 
Makovsky, with whom I have worked on this issue on two Iran 
task forces at this point. We haven't coordinated our 
testimony, but I am sure I am going to agree with what he says.
    I will summarize my testimony. At the moment, we are all 
focused, because the press is focused, on the remaining issues 
in disagreement in negotiations. But one of my points is we 
shouldn't allow that focus on issues like inspections and the 
possible military dimensions to divert our attention from the 
more fundamental problems with this agreement, which I think 
are basically baked in. The first point I make in my testimony 
is that even if all the issues that are in dispute today, the 
ones we are reading about in the newspapers, are resolved on 
favorable terms to the United States, this is still a bad deal. 
And I would refer you to the testimony I presented previously 
as to why I think it is a bad deal.
    But among all the reasons that I have put forward in the 
past, the single most important one to my mind is the sunset 
clause. And the point I have made in the past and I repeat in 
my testimony today is that if it is dangerous for the United 
States to face an Iran today that in 2 to 3 months is able to 
produce a nuclear weapon, if that is dangerous and it is so 
important to extend that to a 1-year breakout time, that we are 
prepared to eliminate all the sanctions that we put in place, 
why isn't it going to be even more dangerous in 10 years for 
Iran to have a much shorter breakout time with which they will 
be able to produce a much larger number of nuclear weapons than 
is the case today?
    If 2 to 3 months is dangerous today, isn't it going to be 
vastly more dangerous to have a breakout time that measures in 
days or weeks starting 10 years from now? That is fundamentally 
what this deal provides to Iran. And to me, that is what is 
most alarming about it.
    I spent a lot of time in my testimony focusing on the 
statement that was put out by the group of bipartisan American 
diplomats, leaders, and experts at the Washington Institute, a 
very distinguished group, including some of President Obama's 
former advisers on the Iran issue, including Howard Berman, the 
former chairman of this committee. It is a very useful 
statement, and I expect it will figure importantly in the 
congressional debate that takes place because of the stature of 
these individuals. They identify a number of concerns. They 
make a number of recommendations for modifications to the 
agreement. I agree with their comments. I hope those 
modifications are made.
    But less noted is the fact that they are also concerned 
about the sunset clause. They don't use that term, but it is in 
the statement. And they come up with what I think is actually a 
radical solution to the sunset clause problem. And I want to 
draw your attention to it because I think it speaks to the 
question of what Congress should do and what situation is this 
deal putting the United States in and what do we do about it.
    I quote the relevant language from their statement, 
beginning at the bottom of page 2 of my testimony, but what 
they say is it needs to be U.S. policy to prevent Iran from 
producing sufficient fissile material--that is material to 
produce a nuclear weapon--sufficient material for a single 
nuclear weapon, both during the agreement and after the 
agreement expires. So that ``after the agreement expires,'' 
they are talking about the sunset clause. We need to make sure 
they can't produce enough material for a nuclear weapon either 
now or after the agreement expires. And they say: The United 
States must go on record now that it is committed to using all 
means necessary, including military force, to prevent this. The 
President should declare this to be U.S. policy, and Congress 
should formally endorse it.
    So they are basically saying you, the Congress, should 
authorize the use of military force if Iran at any point, 
either during the agreement or afterwards, produces enough 
fissile material for a nuclear weapon. Now, the reason that is 
a radical proposal is, of course, the proposed agreement, in 
fact, permits Iran to produce enough fissile material for a 
nuclear weapon. Basically what they are saying is if this 
agreement comes into force, the United States concedes to Iran 
the right to produce fissile material and lots of it if they 
decide they need to do that, but we should then bomb them if 
they exercise this right that we are giving to them. And I 
think that is a pretty sobering recommendation because this 
debate is often cast in terms of we either need this deal, or 
we are going to have to go to war. It is the deal or war. But 
if you read what all these experts are telling you, they are 
saying: Well, actually there may be war even if we give them 
this deal because the deal is going to authorize them or permit 
them to do things that would require us to use military force 
in any event.
    I mean, these are not random people. These are very serious 
people, including President Obama's top advisers. And the point 
I make at the very end of my testimony is that, as 
distinguished as these people are, I don't think that 
recommendation makes a lot of sense. If we are going to bomb 
Iran, let's do it in defense of the existing U.N. Security 
Council resolutions. Let's not do it in defiance of this 
agreement that the President is about to sign because this 
agreement permits Iran to do things that they are saying if 
Iran does, we need to bomb them. I think we will find ourselves 
without many friends if we disregard this agreement and then 
proceed to use military force against Iran.
    So that is one of the key points of my testimony. I also do 
comment on some of these issues in dispute, the possible 
military dimensions issue, which is a question of the history 
of the Iranian nuclear program. I think it is very important. 
Secretary Kerry said we know enough; we don't need to get into 
this. I think the International Atomic Energy Agency deserves 
the support of the United States to get to the bottom of that 
question. We know how to require countries--we required North 
Korea to cooperate with the IAEA. They have never required, 
they have never conditioned any of the benefits in this 
agreement on cooperation between Iran and the IAEA. They call 
for it, but they don't condition anything on it. So that is not 
serious support to the IAEA in its effort to get to the bottom 
of the matter.
    One of the other issues that has just emerged in the last 
week is Iran is suddenly saying, contrary to what was in the 
fact sheet that was released on April 2 that described the 
proposed deal, that fact sheet said sanctions on ballistic 
missiles and conventional arms transfers from Iran would be 
kept in place. The Iranians are now saying they want all those 
sanctions to be ended. The intelligence community assesses that 
with foreign assistance, Iran this year could test a ballistic 
missile capable of striking the United States. Understand that 
what Iran is saying is they want the prohibitions on receiving 
that kind of foreign assistance to go away. They are saying: We 
want to be able to get the foreign assistance we need to be 
able to produce a ballistic missile to strike the United States 
this year.
    And as you pointed out, Mr. Chairman, their whole ballistic 
missile program makes no sense in the absence of a nuclear 
weapon. To strike the United States with a conventionally armed 
ballistic missile makes no sense. With a nuclear weapon, it is 
a serious threat. And the idea that these two are unrelated is 
simply illogical. And, in fact, it is part of the possible 
military dimensions issue that the IAEA wants to dig into. They 
want to look at the links between the ballistic missile program 
and the nuclear program. And that is why the United States 
needs to support them on that issue.
    I think I am out of time. So I will end. And I look forward 
to your questions.
    [The prepared statement of Mr. Rademaker follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
       
                           ----------                              

    Chairman Royce. Dr. Makovsky.

STATEMENT OF MICHAEL MAKOVSKY, PH.D., CHIEF EXECUTIVE OFFICER, 
             JINSA GERMUNDER CENTER IRAN TASK FORCE

    Mr. Makovsky. Chairman Royce, Ranking Member Engel, members 
of the committee, thank you very much for inviting me this 
morning to discuss the emerging Iran deal. I also am very 
honored to be on the panel with Steve Rademaker. We have worked 
together on Iran, on the task force, since 2007. Based on what 
we know today, the emerging comprehensive Iran deal is deeply 
flawed and with historically severe implications for U.S. 
standing in national security. So I believe every day the deal 
isn't concluded is a good day.
    The Obama administration has four primary arguments on 
behalf of this emerging deal: First, it will cut off every 
pathway to a nuclear weapon. But President Obama correctly 
acknowledged in April that in 10 or 15 years, Iran's ``breakout 
times would have shrunk almost down to zero.''
    The second argument is that it will delay a nuclear Iran 
for over a decade. Delay is, indeed, strategically very 
valuable, but only if Iran's nuclear program is truly frozen 
and Iran contained, which is not the case with this deal.
    Third, that a military strike would create a much shorter 
delay than a deal. But Israeli strikes on Syrian and Iraqi 
nuclear facilities actually have pushed back their programs for 
many years and counting. And Israelis believe they could push 
back Iran's program for at least 3 years. The United States has 
obviously a lot more capability, and will likely push it back 
even further, especially with continued vigilance. We can't 
predict, of course, exactly what a military strike would delay 
the program. But I think it is safe to say that it would, could 
dissuade other countries from developing their own nuclear 
program.
    Fourth, the only alternative to this deal is war. That is 
their fourth argument. President Obama claims that Iran came to 
the table because of sanctions. Yet he also contends that any 
further pressure would only cause it to restart its nuclear 
program, leading to war. In fact, as you all know, Iran has 
shown itself susceptible to military and economic pressure. And 
we obviously could do a lot more since we could cut off their 
oil exports. It wouldn't have any impact on the oil market, 
with prices having halved in the last year.
    However, the administration does not avail itself of these 
other options; leaving itself only diplomacy without other 
levers simply becomes pleading. This empty holster, as Tom 
Friedman recently put it, has made war not the alternative but 
possibly the consequence of this deal. Let me discuss some of 
the strategic implications of this deal. Since at least Jimmy 
Carter was President, America has had three main interests in 
the Middle East; a secure Israel, a secure flow of oil from the 
Persian Gulf, and weakening of Islamic radicalism. These three 
interests have converged in containing the Islamic Republic of 
Iran. President Obama came into office seeking to reverse 
traditional U.S. foreign policy which he deemed wrong, often 
wrong, counterproductive, and a divergence from domestic 
demands. That has led him to reach out and eventually to 
embrace Iran and align with it at the expense of our 
traditional allies. Hence, he did not support the 2009 uprising 
in Tehran and did not support Assad's opponents in Syria. And 
he didn't implement the 2013 Syrian red line. Yet he did 
support in 2011 the demonstrations against our allied regimes. 
He also initiated secret talks with Iran even when Ahmadinejad 
was President without consulting or informing our allies like 
the Saudis and the Israelis. As Mike Doran mentioned, he has 
also increased our alignment with Iran in other parts of the 
region.
    This policy has culminated in what I believe is an 
overeagerness to accommodate Iran in the nuclear talks despite 
the fact that Iran, frankly, is a third-rate power. The result 
is questionable U.S. reliability and questionable American 
credibility. There are a number of great consequences to this 
policy. First, some of our Sunni allies will seek to develop 
nuclear programs or acquire nuclear weapons to ensure security. 
As Henry Kissinger and George Shultz wrote in April, do we now 
envision an interlocking series of rivalries with each new 
nuclear program counterbalancing others in the region? The fact 
is nuclear contagion will regionalize this challenge so that we 
will no longer just have to monitor what Iran is doing and not 
doing with its nuclear program, but we will have to also be 
looking at what the Saudis and other countries in the region 
are doing with their nuclear program. This will increase the 
risks, the chances of a nuclear conflict in the Middle East, 
whether through intent or miscalculation. And it could well 
draw in the United States.
    Second, the radicals in the region, such as Hezbollah, 
Hamas, ISIS, and the Muslim Brotherhood, will feel emboldened 
by this deal and what they perceive as American capitulation. 
There will also be continued realignment in the region. Other 
countries will seek closer relations in the region with Russia 
and China. Other countries, including net oil importers, will 
seek closer relations with Iranians. Of course, on the positive 
side, the Israelis and the Arabs, who share a sense of 
abandonment by the United States, will intensify their quiet 
collaboration.
    Fourth, to counteract all the above, the United States will 
likely try to contain a nuclear Iran as we did in the Cold War. 
However, containment is based on deterrence. Deterrence, in 
turn, demands credibility, of which we will have little on this 
issue. It requires indefinite, dedicated, and expensive 
commitment. And it is unclear whether containment even applies 
and deterrence applies to the Iranian regime.
    Fifth, Israel could well feel compelled to strike Iran. In 
short, rising tension and even war, including nuclear war, 
could result from this deal and is not its alternative.
    In conclusion, as the chairman knows, I wrote a book on 
Winston Churchill. And he famously said to Neville Chamberlain, 
who, by the way, was his party leader, as well as the Prime 
Minister, in 1938 about the Munich Agreement: You were given 
the choice between war and dishonor. You chose dishonor, and 
you will have war.
    This is not to compare leaders or situations to today. But 
it is to make two points: First that the consequence of this 
deal will not be peace but greater tension and the risk of 
conventional war and even nuclear conflict that can draw in the 
United States. Second, this issue transcends any administration 
or party. There could still be hope. But an acceptable 
diplomatic solution will require fully and truly employing, in 
President Obama's words of 2009, all elements of American 
power.
    I urge Congress that if this deal is concluded to reject 
the emerging deal and reinvigorate American leverage and 
credibility to achieve an acceptable deal and prevent a nuclear 
Iran at all costs.
    [The prepared statement of Mr. Makovsky follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
                              ----------                              

    Chairman Royce. Thank you. Dr. Pollack.

 STATEMENT OF KENNETH M. POLLACK, PH.D., SENIOR FELLOW, CENTER 
       FOR MIDDLE EAST POLICY, THE BROOKINGS INSTITUTION

    Mr. Pollack. Thank you very much. Mr. Chairman, Congressman 
Engel, distinguished members, thank you very much for inviting 
me to testify before you.
    I don't know what the terms of the deal are going to look 
like. And those terms are important. As a result, I am going to 
reserve judgment for now on what I think about the actual deal 
until I have it before me. And although the details of the deal 
are important, not inconsequential, I think, like many of my 
panel members, that it is also important that we recognize that 
the details of the deal are not the only thing that needs to be 
thought about, that needs to be discussed, that needs to be 
debated with regard to the deal.
    And I fear that we are drowning out other critical aspects 
of this issue in our fixation with the specific terms of the 
deal. In particular, we all need to constantly remember that 
our fears about the Iranian nuclear program are fears about how 
that program could exacerbate the circumstances in the region 
itself. Our fear has always been that Iran with nuclear weapons 
or even a threshold capability would be encouraged and enabled 
to act more aggressively in the region. In other words, any 
nuclear agreement with Iran needs to be seen as a means to an 
end, not an end in and of itself. It needs to be seen as a part 
of a wider American strategy toward the region. And we need to 
consider that entire strategy, not just the specific terms of 
the deal.
    Obviously, the terms of the deal will be important in 
deciding how we should shape our strategy moving forward and in 
the context of a region changed by whatever happens in that 
deal. But we need to also recognize that our policies beyond 
the deal itself will have an equal if not greater impact on 
what happens in the region as a result of that deal.
    Whatever it does to the Iranian nuclear program or doesn't 
do to the Iranian nuclear program, the deal can either hurt or 
help regional stability. But, again, it is only part of that 
puzzle. Another, potentially much bigger piece of that, is the 
question of what the United States does to prepare the 
groundwork once we have the deal in place. There is a great 
question mark out there that none of us can answer as to how 
Iran will behave in the aftermath of a deal. Will they become 
more aggressive, less aggressive, stay the same? All this 
matters a great deal. Proponents of the deal make the case that 
it may be possible after a deal for President Rouhani and 
Foreign Minister Zarif, who clearly would like a better 
relationship with the rest of the world and the United States, 
to forge some kind of a rapprochement building on the political 
capital that they will accrue from a successful deal. That is a 
plausible scenario.
    Unfortunately, an equally plausible scenario is one in 
which the Supreme Leader decides that he has got to either 
throw a sop to his hardliners or else demonstrate to his own 
constituency that he has not abandoned Khomeini ideology and so 
becomes more aggressive to demonstrate that he has not lost his 
revolutionary mojo.
    From my perspective, I think that, at least in the short 
term, it is most likely that Iran's behavior toward the region 
is going to remain basically the same. I think that over the 
last 4 years, Iran has put in place a series of policies toward 
the different countries and problems of the region that suit 
its interests, its politics, and its capabilities. I don't 
think that any of those policies were predicated on what did or 
didn't happen with the nuclear negotiations. And for that 
reason, I don't see a successful nuclear deal of any kind as 
fundamentally changing Iran's approach to any of those things. 
And, unfortunately, Iran's broad policy toward the Middle East 
is inimical to American interests. It is inimical because the 
Iranians define it as being inimical to our interests. And more 
than that, it is destabilizing in a number of very important 
places, although not all, in the Middle East.
    As we are all well aware, and as my copanelists have 
described, many of our allies in the region, led by the Gulf 
Cooperation states, are very concerned about how Iran will 
behave after a deal. They fear that the Iranians will be more 
emboldened, will be more aggressive. They also fear how the 
United States will behave after a deal. They are deeply 
concerned, as Dr. Doran has eloquently pointed out on many 
occasions, that the United States is going to use a nuclear 
deal with Iran as a ``get out of the Middle East free'' card, 
that we will take the deal, announce that we have solved the 
greatest problem in the Middle East and walk away.
    And the great danger is that what we have seen is that when 
our allies, particularly when the GCC feels frightened, when 
they feel that they cannot rely on us, their default option is 
not to accommodate Iran, as many people fear; it is, instead, 
to get in Iran's face and push back as hard as they can. And 
the problem there is that the GCC lacks the political and 
military capacity to do so. And it runs the risk of 
overstressing its own political and military capabilities with 
potentially dire repercussions for their own internal 
stability.
    The Yemen war, the recent GCC intervention in Yemen, I 
think is an eloquent case in point there. It is unprecedented. 
We have never seen the GCC undertake so massive a unilateral 
military intervention. It is also incredibly dangerous. They 
don't know what they are doing. They don't have a plan. They 
don't know how to get out. They can't do a surge in Iraq, even 
though they have got themselves stuck in Yemen, exactly the way 
the United States had gotten itself stuck in Iraq back in 2005, 
2006. And that is a very real problem, not just for them but 
for us.
    As my copanelists have pointed out, they are not assuaged 
by the Camp David Summit or by the administration's statements. 
The administration continues to plead that they have not 
disengaged from the region and do not plan to further 
disengage. But here I have to agree with my GCC colleagues that 
me thinks the administration doth protest too much, to 
paraphrase Shakespeare. The administration said it would 
disengage from the region. It did do so. And it has only 
partially reengaged when circumstances forced it to do so. And 
it is now trying to do the minimal possible to sort out the 
situation.
    I am concerned that in the wake of a deal, it is going to 
require a major American effort to convince the region that we 
are not walking away, to push back on the Iranians, to let them 
know that they will not have a free hand in the region, and to 
reassure our allies so that they do not feel that they need to 
take on the Iranians themselves in ways that they are simply 
incapable of doing so. Once again, I see ourselves faced with 
choosing among the least bad option. And I am reminded that it 
seems to me that, once again, the Middle East is teaching us 
the lesson, that whenever we try to minimize our commitments 
there, the problems of the region simply get worse. And they 
force us eventually to come back and do more than we had ever 
intended. Thank you.
    [The prepared statement of Mr. Pollack follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Chairman Royce. Dr. Pollack, your commentary there is 
interesting to me because there is this phenomenon, this 
morning the New York Times discusses it, the increasing 
strident nature of the regime against the United States.
    I will just read the story from the New York Times:

        ``The chants of `Death to America' and the burning of 
        American flags on the streets are as familiar a part of 
        life here as air pollution and traffic jams. With the 
        United States and Iran on the verge of a potentially 
        historic nuclear accord, there has been a distinct 
        change in tone, however. The anti-Americanism is 
        getting even more strident. The rising levels of 
        vitriol have been on display this week in the buildup 
        to the annual anti-Israel extravaganza coming this 
        Friday.''

    So the other part of this is that as we reach out to extend 
that ``olive branch,'' to quote the Secretary of State's words, 
you have this reaction in Iran where the Ayatollah speaks even 
more fervently of the requirement, you know, to develop, to 
``mass produce,'' in his words, ICBMs. And this is the aspect 
of this where I think we are a little disconnected from the 
reality of the way in which that system works and the 
individual who makes the decisions over there.
    As a matter of fact, Rouhani today is meeting with Putin in 
Moscow. And what is the Russian demand? And this caught us by 
surprise this week, the demand from Iran now that we lift the 
arms embargo. And, of course, they will be getting this huge 
tranche--I have called it a signing bonus, but they will be 
getting this cash on the barrel head. And I think Russia is 
very, very interested in that because you see the stories in 
the last few weeks about the Russians selling weapons systems 
to Iran, including, you know, surface-to-air, which, frankly, 
would allow them maybe to cheat with impunity if they put up a 
vast enough system across Iran. Now, here is the new demand: 
Lift the arms embargo.
    Dr. Pollack, your thoughts on that.
    Mr. Pollack. Thank you, Mr. Chairman.
    I agree with you. I saw Tom Erdbrink's piece this morning 
as well. And I think that it does speak to exactly the issue 
that I have been concerned about for quite some time, which is 
we don't know how the Iranians are going to react to their own 
deal. As I suggested, while I think it is clear that President 
Rouhani and Foreign Minister Zarif would like to move in the 
direction of accommodation, there are forces pushing in the 
opposite direction. And what we have seen for the Ayatollah 
himself is he is deeply suspicious of the United States. And he 
may very well decide that he needs to tack back to the right to 
accommodate his hardliners. Because he just gave this big bone 
to Rouhani and the moderates in signing the agreement itself. I 
think this is a very real concern.
    Chairman Royce. The only caveat I would make is when we are 
talking about Zarif, remember, we are talking about a man who 
placed a wreath on the grave of the individual who carried out 
or masterminded the attack on the Marine Corps barracks in 
Lebanon. He may seem moderate compared to the Ayatollah. But in 
terms of what he has called for and his past history running 
the security state and the torture and execution of people as a 
consequence puts it in a little bit different perspective in 
terms of the background of some of these individuals.
    But I wanted to ask Mr. Rademaker, as you note in your 
testimony, Iran has agreed to not enrich uranium over 3.67 
percent for at least 15 years. So implicit in that statement is 
that after 15 years, Iran is going to be permitted to enrich to 
higher levels. There is no suggestion that there will be any 
limit on the level to which Iran may enrich after 10 or 15 
years or the amount of highly enriched material that it may 
accumulate. So let us say Iran begins to enrich uranium very 
close to bomb-grade levels after the sunset, and they say it is 
to operate a submarine program. What is the world's response to 
that? I mean, do I understand correctly the way this is teed up 
here?
    Mr. Rademaker. You are clearly grasping the point I made in 
my testimony, which is this agreement will concede to Iran the 
right after 15 years to produce highly enriched uranium, bomb-
grade material, without any limitation on the amount of that 
material they may accumulate. Now, ordinarily, you would think 
if somebody is producing bomb-grade material in amounts in 
excess of what you need to build one or two or three nuclear 
bombs, that they must be on track to build a nuclear bomb.
    But there are peaceful explanations one could put forward. 
One such explanation would be if they were to say, for example, 
we want to build a nuclear navy because, hey, you Americans, 
you have a nuclear navy and you use highly enriched uranium to 
fuel the nuclear reactors in your submarines; that is what we 
are doing. Now, if Iranians say that, are the people in this 
room going to believe them? Are we going to think that that is 
really what they are doing? Or are we going to suspect that 
what they are really doing is accumulating the material so that 
they can breakout overnight with a large arsenal of nuclear 
weapons. Personally, I am going to think it is a pretext.
    But your question, Mr. Chairman, is, what is the rest of 
the world going to think.
    Chairman Royce. Well, the other point I would make----
    Mr. Rademaker. And, you know, I think a lot of the rest of 
the world is going to be prepared to give them the benefit of 
the doubt. And they will point to this agreement and say: Hey, 
you Americans, too late for you to object; you signed off on 
this.
    Chairman Royce. Well, even the North Korean agreement did 
not have a sunset.
    Mr. Rademaker. Correct.
    Chairman Royce. Now, it had the loopholes in it because we 
couldn't go ``anytime, anywhere,'' you know, anyplace with the 
international inspectors. It was only a matter of time before 
North Korea would figure out a way to cheat on that agreement 
and get a bomb. But at least it didn't have a sunset. That is 
the aspect of this I don't understand.
    And the last point I would just ask Dr. Doran, you know, 
the administration says that they don't see, they are going to 
spend the vast majority of the money when we lift the 
sanctions, most of it is going to go to butter not to guns. 
However, the statement I saw was the statement by Iran that 
they were going to help--this was in The Wall Street Journal--
that Iran was going to help rebuild the tunnels--Mr. Engel and 
I were in one of those tunnels; there are 35 tunnels; they are 
expensive to build--for Hamas, you know, under Israel and that 
they were going to supply missiles to replace the inventory 
that were fired off by Hamas and then, the added story the next 
day, that they were also going to fund precision-guided rockets 
and missiles, 100,000 of them, to Hezbollah. That takes a 
little bit of cash to do that. How do we know that it is all 
going to butter and not to guns? I would just ask, Dr. Doran, 
what is your calculus on that?
    Mr. Doran. I think to believe this claim that it is going 
to go to butter and not guns is to discount everything that the 
Iranians have said and done over the last 36 years. And I can't 
think of any other endeavor of human prediction where we would 
say everything they did until yesterday has no relevance to 
what we think they are going to do, they are going to do 
tomorrow.
    In addition to the concerns that you raise, personally, I 
am also very concerned about the ability of the Iranians to 
prop up the Assad regime. It wasn't that long ago that we 
thought the Assad regime might be toppled. And the greatest 
factor that changed the balance of power on the ground in favor 
of the Assad regime or that gave it a new lease on life was the 
Iranian intervention, direct intervention from Iranians 
themselves and also the sending of Iraqi militias trained in 
Iran.
    Chairman Royce. I am glad you brought up that point because 
not only was the Assad regime on the ropes, but the Iranian 
regime was on the ropes. And Mr. Engel and I had legislation 
based on some of the work of Stuart Levey over at Treasury, to 
give the Ayatollah an actual choice between economic collapse 
or real compromise on his nuclear program. It passed out of 
here unanimously in this committee, passed the floor 400 to 20. 
One of the reasons Iran is a little bit back in the game is 
because we partially lifted those sanctions. The suggestion in 
the House was that we double down and give us some real 
leverage in this negotiation. And the administration made the 
decision to sit on that legislation or at least, you know, 
orchestrated in the Senate the inability to bring that to the 
floor. And I think we lost a lot of leverage out of that.
    My time has expired. I need to go to Mr. Engel. Thank you.
    Mr. Engel. Thank you, Mr. Chairman.
    And thank all of you on the panel for your good testimony.
    Look, I have a lot of difficulty with some of these deals, 
these negotiations, as you do. But I think that, at this point, 
we are almost at the midnight hour, so to speak, we have to 
look at the choices that we have. The way I see it right now is 
that we have a choice to accept--Congress does--and support a 
deal that the administration negotiates, or we don't. And if we 
don't, then we need to look at the alternatives.
    I share all of your concerns. There isn't anything that 
anybody has said that I really disagree with. I think it is a 
problem. But I do think that the alternative, as I mentioned 
before, would simply be, as the chairman and I have long felt, 
more sanctions on Iran but also an attack on their nuclear 
plant.
    Now, if there is no deal, how long would the current 
sanctions regime hold? We are told time and time again that if 
there is no deal and the perception is that the United States 
walked away, that the rest of the international community would 
abandon the sanctions, even including our allies, like the U.K. 
and France and countries that have been most supportive of us. 
So if we are unable to sustain the sanctions regime and have a 
bombing of their plant which sets them back 2 years or 3 years 
or whatever it is, is that really a viable alternative? Anybody 
care to answer?
    Dr. Makovsky?
    Mr. Makovsky. Thank you very much, Ranking Member Engel.
    I think when we think about the alternatives, again, as I 
mentioned, I think that we have to weigh, there is no good 
alternative here for sure. I just think that the alternative of 
this deal, the consequences of the deal are much worse than the 
consequences of no deal right now. And I would think about it 
in those terms.
    For instance, as I said, I think one of the biggest 
problems with this deal is that the other countries in the 
region will pursue nuclear weapons. The Saudis have said that. 
President Obama said it only in 2012. He said it with great 
certainty. And then I think you really have a problem. And then 
this problem is not just about Iran, but it is about the 
region.
    We don't really want the Saudis to get nuclear weapons. And 
we don't want other countries to. Then the region becomes a lot 
more dangerous. So even if the alternative to this deal is a 
military action--I don't think it has to be. I think we could 
boost our leverage as you indicated. But I think you could 
argue that even if there was a military strike, which we all 
hope it doesn't come to that, the consequence of that would be 
a lot less than what could be a nuclear contagion in the region 
and really, really serious conflict involving nuclear power.
    Mr. Engel. Well, the point I am making is, while we all 
find aspects of these negotiations that we don't like--and I 
have been saying mine for over a year--it is not just accepting 
this deal or nothing. There are things that we are going to 
have to come to grips with. And I believe one of them is 
bombing the nuclear reactor.
    The Europeans are seeking further economic ties with Iran. 
The Russians and Chinese are preparing to give up on the arms 
embargo and ballistic missile sanctions, as pointed out. Those 
are sanctions that are outside of the scope of the 
negotiations, clearly.
    So to me, it says about the viability of sanctions 
enforcement, if a deal fails, we can see it eroding.
    Let me also make another point. We have a Presidential 
election next year. One of the things that is always pointed 
out is that a new President is not necessarily bound by all the 
constraints of a deal that an administration negotiates. If the 
new President elected in 2016 feels that the Iranians are 
backtracking or not doing what they should be doing, then that 
President can move in a different direction.
    One of the things that really disturbs me about this whole 
thing, and there are plenty of criticisms you can level at the 
administration or the President or the negotiations or 
whatever, but I want to go back to 2007, because I think there 
is blame here on a bipartisan basis, quite frankly. In 2007, 
when President Bush was President, the National Intelligence 
Estimate on Iran told us that Iran had abandoned making 
weapons, and we all thought there would be some kind of strike.
    We are in this position right now because 10 years ago, 8 
years ago, 6 years ago, 12 years ago, when we had the ability 
to really destroy Iran's nuclear capability, we didn't do it. 
And so we waited till 1 minute to 12, and now it is an 
impossible situation, because they are almost at the breakout 
point.
    Why didn't we move sooner? Why didn't we move during the 
Bush administration when we thought they were going to do 
something? Why didn't we move when Iran wasn't spinning 
centrifuges, and didn't have the sophisticated centrifuges? 
What do you think?
    I just think it shows a failure all the way around the 
political spectrum, not one party, everybody, that we failed to 
grasp the fact that this regime, the dangerous regime, poses a 
threat to us and our allies, and there is plenty of blame to go 
around all the way.
    Mr. Rademaker.
    Mr. Rademaker. Congressman, I guess the principle 
observation I would make in response to that last question is 
the military option didn't look any better in 2006 or 2007 than 
it does today.
    Mr. Engel. Well, it looks better because they weren't as 
sophisticated. They didn't have all the centrifuges. It would 
have been easier to take out their nuclear capability way back 
when because it was a lot smaller.
    Mr. Rademaker. Well, it has always been the same problem. 
You can destroy physical things that are on the ground, but you 
can't destroy technology. And they have the technology, they 
have the blueprints, they can replace----
    Mr. Engel. That is true, and that is always pointed out by 
the administration when they tell us, well, you can't destroy 
technology. But I am saying it was a lot easier years ago when 
it was much smaller and easier to destroy than it is now. I 
mean, when Israel struck at Iraq, Iraq never recovered because 
their program was very, very small. The Iranian program was, 
obviously, much smaller 10 years ago, 6 years ago, than it is 
now.
    Mr. Rademaker. The ability to reconstitute was always 
there. I think we could destroy what is on the ground today, 
but we understand that if we go down that road, we are going to 
have to come back every year or 2.
    Mr. Engel. I think their program is much more sophisticated 
in terms of being buried under mountains and things like that, 
and wasn't necessarily the case 10 years ago.
    Dr. Doran.
    Mr. Doran. I was in the Bush White House in 2007. And I 
agree with you that there is blame to go around. But I would 
like to share with you some of the thinking at the time, what 
we thought we were doing.
    We looked at it as a disaster if the President got to a 
point where he was faced with the stark choice of either 
bombing Iran or Iran getting a bomb. And we were trying to 
create a third option, which was, I would say, coercive 
diplomacy. And it was with those thoughts in mind that we 
constructed, on the back of Stuart Levy's insights, the 
sanctions regime.
    And I think that strategy came to fruition in 2012, 2013, 
especially with the central bank sanctions, which really did 
start to bite, and you started to see very severe concern in 
Iran about this. And, unfortunately, President Obama didn't 
have a coercive diplomacy approach to the question. And as 
Chairman Royce mentioned, when the regime was actually on the 
ropes, we let them up and made a massive concession to them in 
the form of a deal that included this sunset clause.
    With the sunset clause, we have sent the world a message 
that we are no longer containing Iran, we are now managing its 
rise. And that has given rise to this--the rush that we see 
among the Europeans to go to prioritize their economic 
relations with Iran over the security concerns of the rest of 
us, that has actually been encouraged by the President's 
diplomacy.
    Mr. Engel. Well, I have been--and I am going to end, Mr. 
Chairman, because I am way over--but, look, I have been as 
critical as many of you about a lot of this stuff. But we were 
told that the Bush administration would never leave office and 
allow Iran's capability, nuclear capability, to continue 
unfettered, and that is actually what happened.
    So I am just pointing out, plenty of blame to go around. I 
think this has been a failure, frankly, in American policy 
going back a couple of decades.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Engel.
    We go to Ileana Ros-Lehtinen.
    Ms. Ros-Lehtinen [presiding]. Thank you so much, Mr. 
Chairman.
    Thank you for excellent testimony.
    The only good deal is one in which Iran ceases all 
enrichment and dismantles its nuclear infrastructure. That is 
the best way, the only way to ensure that Iran won't be able to 
create a nuclear weapon, ever. If a deal is signed based on 
this framework agreement, that means it allows Iran to keep in 
place every key element of its nuclear infrastructure, preserve 
its stockpiles of enriched uranium, and keep its equipment and 
research and development program.
    Not only is this agreement, from what we know, a 
significant step back from what the U.N. Security Council and 
world powers were demanding from Iran just a few years ago--do 
we remember that, do we remember those resolutions?--but it is 
also significantly weaker than even what the President stated 
emphatically were his lines and his demands, just 1\1/2\ years 
ago. And I have his quotes here if we don't remember.
    We don't know much about Iran's possible military 
dimension. That is frightening. And what about the Parchin 
military facility, which was the center of Iran's weaponization 
and military program? We need answers on that. But it is clear 
that the administration is willing to let that fly.
    The Supreme Leader and his puppet Rouhani, because Rouhani 
will only do what the Supreme Leader says, they are saying that 
Iran will only sign the nuclear deal if sanctions are lifted 
the same day. What has the administration offered in terms of 
sanctions relief and at what scale? We hear a lot of talk about 
a signing bonus, as if it is the NFL draft, of $50 billion 
before Iran even has to comply with anything. This is beyond 
irresponsible and incomprehensible.
    And can the agreement be verified? In a word, no. The 
Iranian regime still controls access to its sites, and we know 
how good they have been on dodging, on stalling, on misleading, 
and blocking, and there is no reason to believe that they are 
going to change. Iran has said it won't allow inspections on 
its military sites. So guess what will be happening in its 
military sites?
    This whole deal is a fanciful notion and is really a 
disaster waiting to happen for our national security, for our 
allies in the regions. And the sad reality is that the only way 
we are likely to not get this deal is if the Iranians can't 
take yes for an answer.
    Similar to the Palestinians and the Israelis, the Israelis 
were offering them in many of these peace talks everything to 
the Palestinians. The Palestinians walked away from the deal. 
We are better off for it. The only way we are not going to get 
this deal if the Iranians walk away. Everything about this deal 
is my most serious concern.
    I wanted to ask you in the little time I have remaining 
about breakout capability. Certainly, 1 year isn't sufficient. 
We have had many experts tell us it is nearly impossible to 
even tell when the clock begins, and even when it does, it is 
next to impossible for the administration to verify that Iran 
has started breaking out and then send it up to the U.N. 
Security Council to have that body act. Like most everything 
else related to this deal, it is just a pipe dream.
    Is 10 years enough? And what can you tell us about the 
about the breakout capability that we are looking at?
    Mr. Rademaker.
    Mr. Rademaker. Thank you. And nice to see you again, 
Congresswoman.
    I have focused a lot of my criticism on the sunset clause, 
because it does essentially give them a radically enhanced 
breakout capability upon the expiration of the agreement. Even 
President Obama has conceded this. I quoted his statement where 
he said by the 13th year of the agreement their breakout time 
will have--and this is President Obama--it will have ``shrunk 
down almost to zero.'' That is the President. That is the best 
he can say about his own agreement.
    The agreement does include an indefinite prohibition, a 
nonsunsetted prohibition on reprocessing. There are two ways 
that a country can get fissile material for a nuclear weapon, 
they can reprocess spent nuclear fuel, and that gets to 
plutonium, or it can enrich uranium. So they have agreed 
permanently not to reprocess. And that is a very useful, that 
is an important concession. And that one is not sunsetted. But 
on the enrichment side, which is the other pathway to fissile 
material, it sunsets beginning after 10 years.
    And what is interesting to me is the Iranians have not 
hesitated to reopen issues in this negotiation. They did it 
just this week on the conventional arms embargo and the U.N. 
sanctions on ballistic missile transfers. That was something 
that was previously agreed, and they have just reopened it and 
said: No, actually, we don't like the deal we struck a few 
months ago, we want to renegotiate that.
    I don't know why the U.S. side isn't equally tenacious in 
these negotiations. Why doesn't our team say: You know, this 
sunset clause, we have looked at it, it is a problem for us, we 
need to renegotiate that. The Iranians are doing that today on 
the arms embargo. Why can't our negotiators do the same?
    Ms. Ros-Lehtinen. I am having a subcommittee hearing with 
Mr. Deutch about the GCC countries and their reaction to a 
nuclear deal, and several of you were bringing that out. Are 
they going to let Tehran keep its nuclear infrastructure and 
offer billions of dollars of sanctions relief and they will do 
nothing? Of course, that is not going to be true. So we worry 
about their reaction to that, and they no longer think that we 
have their back.
    But thank you. My time is up.
    And I would like to recognize Ms. Robin Kelly of Illinois.
    Ms. Kelly. Thank you, Madam Chair.
    America's national security is an issue that those of us 
trusted by the public to serve in Congress must and do take 
seriously. It is going to take all of us on both sides. But I 
am going to be positive and think that we will get to a deal 
that most of us can support. I wanted to look forward.
    Saudi Arabia has said that they want the same capabilities 
as Iran if a deal is reached. Jordan and Egypt have hinted the 
same as well. Some have cited these examples as the beginning 
of a nuclear arms race. How serious do you think the regional 
actors are in pursuing their own nuclear programs? And it is 
open to all of you.
    Mr. Makovsky. Congresswoman, I think, as I said, we have to 
take that extremely seriously. If you were them and your 
patron, the United States, conducted these negotiations 
initially without even informing them and has shown a shift 
toward your archenemy, the Iranians, I think you wouldn't feel 
that comfortable. And therefore I think it would be perfectly 
natural for these countries to pursue that.
    And I will add, it also complicates the issue of the 
military action and what we do, because, again, going forward, 
if that is the case, what you said, Congresswoman, this issue 
then regionalizes. It is no longer about just a nuclear Iran. 
It is about what these other countries are doing.
    And we have to make sure we act, whatever way it is, to 
prevent this sort of genie spreading and getting out. Because 
once it gets out and a lot of countries have it, as George 
Shultz and Henry Kissinger raise, as I mentioned, how do you 
put together a policy that actually manages that? And I don't 
think you can, is the answer.
    Ms. Kelly. Thank you.
    Mr. Pollack. Congresswoman, let me start by disagreeing 
with Mike, but I am going to come around and agree with him at 
the end, if you will follow me.
    I think that the threat of proliferation is a very serious 
one, but we shouldn't necessarily assume that it is also an 
uncontrollable one. We all remember President Kennedy 
predicting that there would be 25 nuclear powers by 2000. We 
are still at nine and counting.
    Historically, far fewer countries have actually pursued a 
nuclear weapon to its finish and acquired the arsenal than have 
started down that road. Far more stopped along the way. And we 
have a great deal of historical evidence indicating that there 
are all kinds of different factors which caused these countries 
to stop, despite the fact that in many cases they do have 
compelling strategic reasons to acquire them.
    My favorite example is Egypt. I always point out to people, 
you may remember it, although you may be a little too young for 
this, Tom Lehrer, his great song, right, ``Who's Next?'' Right? 
Talking about nuclear proliferation. One of his lines was that 
Egypt wants a bomb just to drop on you know who.
    In the 1960s it was so axiomatic that Egypt was going to 
acquire a nuclear weapon that Tom Lehrer put it into a humorous 
folk song. They never got it. And that, again, is the history 
of this.
    Where I want to agree with Mike is that he is absolutely 
right to focus on the critical variable. The reason that states 
stop is because they have compelling rationales not to, and 
because typically someone else, almost always the United 
States, removes the strategic threats. We step in, whether it 
be with South Korea or Taiwan or Australia, pick your favorite 
country, and say to them: You don't need it, we will deal with 
your security problems.
    By the way, I just want to echo, Steve Rademaker is 
absolutely right to be focusing on the sunset clause. That is 
the most problematic aspect of this. It is the biggest unknown. 
It is the area where I think that we can have the greatest 
sympathy for our allies, particularly the Saudis. I will be 
honest, I am not worried about anybody else in the Middle East. 
I think the Saudis' proliferating is a very significant issue.
    But I think that it is also very susceptible to what we do. 
It would be hard for the Saudis to proliferate. It seems clear 
the Pakistanis are not simply going to sell them a bomb. They 
do not have the scientific infrastructure to build one easily.
    I think that there are lots of opportunities for the United 
States to step in and convince the Saudis they don't need to do 
so. But, again, that is why I focused my remarks on the 
importance of this regional context and on the United States 
remaining engaged, not walking away.
    Mr. Makovsky. Could I just add one thing on that? Ken 
brings up a good point. I will just say, one of those countries 
was Ukraine. And they gave up their nukes with the Budapest 
agreement in 1994 based on assurances from the United States, 
the Russians, and the British that their sovereignty will be 
maintained. As we all have seen, of course, over the last 1\1/
2\ years, those assurances were not honored, and that is, 
obviously, an incentive for other countries not to repeat the 
mistake the Ukrainians made.
    Mr. Doran. If I could just add one point. One of the 
arguments that is being made--Ken didn't make that argument, 
but he was moving in that direction--is that a nuclear 
guarantee from the United States would solve the problem. And I 
think that that is just wrong, because when the Saudis look at 
the whole nuclear question, they are not simply trying to match 
Iranian capability in a symmetric fashion.
    One of the reasons why the Saudis would want to bomb is in 
order to get leverage over the United States, because they no 
longer trust the United States. Similar to what the French did 
when they developed their own independent nuclear capability so 
that they could negotiate with NATO about NATO's security 
policy.
    So the fact that we are willing to--first of all, I have 
doubts about our own willingness to actually extend the nuclear 
umbrella to the Saudis, but I don't believe that they would 
feel secure at all because of that.
    Ms. Ros-Lehtinen. Thank you.
    Chairman Royce [presiding]. We will go now to Chris Smith 
of New Jersey.
    Mr. Smith. Thank you, Mr. Chairman. Thank you for calling 
this, again, timely and important hearing.
    Welcome to our witnesses.
    Based on the outlines of the deal as we know it, President 
Obama's rush to sign what appears to be an egregiously flawed 
nuclear deal with Iran may make war more, not less likely, may 
trigger a nuclear arms race in the region, and surely makes 
Israel and our other friends and allies in the region and the 
United States itself less safe.
    A sunset clause is one, but this deal appears to be riddled 
with Achilles' heels. And I think we will wake up too late to 
that fact because of this rush. It ought to be self-evident 
that any nuclear agreement must bar every Iranian path to 
nuclear weapons. This deal must last for decades, not for 15 
years or whatever the sunset provision turns out to be. Iran 
must be compelled to dismantle its current nuclear 
infrastructure, not merely disconnect centrifuges, no 
enrichment.
    And my friend and colleague from Florida, Ms. Ros-Lehtinen, 
was right, all of the previous admonishments from the U.N. and 
Security Council resolutions were no enrichment. That is off 
the table now. IAEA inspectors must have unfettered access to 
any and all suspected sites, including military installations.
    What a theater of the absurd when during these negotiations 
high-level people from the very top say: No access to nuclear 
inspections on military installations. I mean, that is where 
they will put them.
    And let me also ask our distinguished panelists, if there 
is no deal, or if Iran fails to live up to a deal, say Congress 
were to go along with it, what happens when they fail to live 
up to it, which I think we can almost predict with near 
certainty will be the case.
    We are in a position of worldwide comprehensive sanctions. 
Will they happen? Or will that coalition, is it being 
dismantled even as we talk? Again, there shouldn't be a 
lifeline to China for oil, which kept Tehran afloat.
    Secretary Rademaker, you bring up a number of great points 
about the cascade of nuclear proliferation in the Middle East, 
which I think is the next step. How can they not build up their 
own deterrence capability in light of an aggressive country 
like Iran?
    And I thought your including Thomas Friedman's comments 
about ``it is stunning to me how well the Iranians, sitting 
alone on their side of the table, have played a weak hand 
against the United States, Russia, China, France, Germany, and 
Britain on their side of the table. When the time comes, I am 
hiring Ali Khamenei to sell my house. . . .'' And you talk 
about how--quoting him--how they should have walked out, say: 
That is it, there are some bright lines. I mean, the future of 
millions of people's lives--and what is worse than nuclear 
bombs--hang in the balance.
    And let me also finally ask about, given Iran's long 
history of supporting terrorist organizations, what is to 
restrain them from selling materials for dirty bombs to other 
rogue or to other terrorist organizations?
    And, again, we still have four Americans, including Saeed 
Abedini, being cruelly mistreated while all of this is going 
on. I have chaired, myself, two hearings. The chairman had a 
hearing with relatives from each of the four. That too just 
begs the question of who it is that we are really dealing with. 
And as you said, the whole idea of those sanctions, especially 
when we went after the bank, that had a bite, and it should 
have had a longer bite to get a better deal.
    Mr. Rademaker.
    Mr. Rademaker. Congressman, you make many great points, and 
I can't possibly respond to all of them. But on the Thomas 
Friedman piece, I excerpted from it in my testimony. I mean, he 
makes the very insightful point that the Iranians have been 
much more effective negotiators, just as a technical matter, 
advancing their interests, refusing to budge, basically 
approaching these negotiations with the perspective of the 
United States and its allies need this agreement more than we 
do.
    And Friedman points out, that is just fundamentally not 
true. Iran needs this more than we do. But the psychology of 
this negotiation is the opposite and the Iranians have taken 
full advantage of that. And I am with Tom Friedman, I want 
Khamenei to sell my house too, because he has proven a very 
effective negotiator.
    I don't know why our team can't be as effective as they 
are. Just this week--I made this point already, but I want to 
reiterate it--just this week the Iranians reopened an issue 
that was agreed to previously. It had been agreed that the U.N. 
Security Council would leave in place the sanctions on 
ballistic missile transfers and on conventional arms transfers. 
That is in the April 2 State Department fact sheet. It just 
says these will be kept in place by the U.N. The Iranians here 
at the very end say: Oh, you know, actually, we want to change 
that, it is disadvantageous to us, we want to change it.
    I don't know how that is going to come out. I really worry, 
though, that you are going to see some backsliding.
    Why is it that only the Iranians can reopen issues? It 
seems to be consensus in this room that the sunset clause is a 
disaster, okay, it is just disastrous for our interests. It 
scares our allies. Why can't our negotiators reopen that issue? 
Why can't they say: Hey, we still want a deal, but, hey, Iran, 
you agreed to an indefinite band on reprocessing of spent fuel, 
okay, so you can't--I mean, this thing doesn't have to sunset, 
you have agreed to some restrictions that are of indefinite 
duration.
    We need that not just on plutonium. We also need that on 
enriched uranium. Let's go sit down and talk about that.
    Mr. Engel, you made the point, what are the alternatives? I 
don't know that we need to walk away from the table. I mean, I 
think we can negotiate as aggressively as the Iranians are 
negotiating this week, reopening issues that were previously 
agreed. Why can't we do that?
    Mr. Makovsky. If I may add a point, Congressman, just to 
add to your point. I am not in a rush to hire the Supreme 
Leader as a real estate agent. But I think it is just more, 
frankly, that we have played an extremely strong hand 
unbelievably weakly.
    In fact, historically, if you look back, obviously, Munich, 
people always cite Munich as always one of the worst diplomatic 
blunders in 1938. But in fairness to Neville Chamberlain, the 
Germans were a rising power, the British needed to rearm their 
RAF and so on, and they had no historical connections to 
Czechoslovakia.
    We, on the other hand, have longstanding interests. We are 
a superpower. If we wanted to, we could certainly deliver an 
incredible military blow to the Iranians. We are the 
superpower, yet we are acting more like a supplicant.
    And it gets to your first point, Mr. Congressman. You 
asked, what if they violate it? I will just cite a Washington 
Post editorial this week where they talked about the warped 
proclivity of the administration to respond to questions about 
Iran's performance by attacking those who raise them.
    And the Iranians have violated the Joint Plan of Action, 
and each time it has been raised, including recent weeks about 
the oxidation issue, the administration not only has defended 
the Iranians or not reported it, but they have attacked, like, 
David Albright and others who have actually brought it to our 
attention.
    So I fear that they will violate, as long as this 
administration is in power, they will try to minimize it or 
hide it or defend it, because then it will admit failure of 
their policy. So I think if they violate it, we will have to 
wait till the next President for that to be addressed more 
fully.
    Chairman Royce. We are going to go to Dr. Ami Bera of 
California.
    Mr. Bera. Thank you, Mr. Chairman and ranking member. And I 
thank the panelists as well.
    I am going to reserve judgment on a final deal until we 
actually see what is in that final deal. But my starting point 
and my concern is, I don't trust Iran. Right? In any final 
deal, verification has to be the starting point. I just don't 
know how you verify if you don't have unfettered access to 
places.
    And, again, if you don't have that verification, as the 
chairman stated, there should be no signing bonus, right? I 
mean, you don't get a bonus just for signing the deal. You get 
a bonus after adhering to the terms of the deal, verifying 
that, and then over time perhaps you can gain trust. And that 
is what has me concerned.
    I also have very legitimate concerns that as Iran's economy 
strengthens, what they do with that strength in terms of--many 
of the members, the ranking member and the chairman, have 
talked about the funding of terrorism, the funding of Hamas and 
Hezbollah, and that is a real concern. If we look at the nature 
of the Middle East and how things are changing dramatically, 
you can see a scenario where a revitalized Iran, a Shia-
dominated Iraq, an Assad who stays in place, Hezbollah and 
Hamas creating this ring around our allies. And even without 
nuclear weapons, we see a very unstable Middle East, where I 
would never have thought that Israel, Egypt, and Saudi Arabia, 
the unlikeliest of allies, might actually ally against a common 
threat.
    I certainly would be curious about this scenario, even 
without acquiring nuclear weapons, what a revitalized Iranian 
economy would look like and how they would use those.
    Maybe, Mr. Rademaker, if you would like to.
    Mr. Rademaker. I think it is clear that a lot of our 
friends, in fact, I think all of our friends in the region are 
concerned precisely about that, that this deal represents a 
shift in the balance of power and acquiescence by the United 
States to that shift. And it puts the question in their laps, 
what do they do? And some of my copanelists have commented on 
that.
    But the signing bonus, $100 billion, $150 billion, the 
estimates vary, but when I testified here about 2 months ago I 
pointed out that their national budget, their government 
budget, is $300 billion a year. So this is somewhere between a 
third and half the amount of money that their government spends 
every year.
    If somebody were offering to hand that much cash to the 
United States Government, it would be Christmas Day and our 
birthday and every other holiday all wrapped up in one. I mean, 
you can imagine the kinds of proposals that would elicit about 
what we could do both domestically, but also in terms of 
foreign policy. With that kind of money, would we feel like we 
would need to retrench, or would we feel like we could be more 
assertive internationally?
    It is not just the amount of money, it is the amount of 
money relative to the size of the Iranian economy.
    Mr. Bera. Dr. Pollack, would you like to?
    Mr. Pollack. Thank you very much, Congressman.
    I would start by saying that I tend to find myself very 
close to where Congressman Engel is, in fact, perhaps exactly 
where Congressman Engel is about this deal, which is to say 
that I think that we could have gotten a much better one. I 
wish that we had. I think that the chairman was actually 
summarizing my remarks at the beginning about the deal that we 
should have been shooting for.
    And I agree that I think we had a much better chance of 
getting it, in part because--I want to give the administration 
credit--the administration did a great job getting the Iranians 
to the table, building that international coalition, putting in 
sanctions much better than I expected. But I agree, I was very 
disappointed in the way that they have handled the 
negotiations.
    But it is why I think that your points about the region 
become more and more important. I think that this is the deal 
that we are going to get. What it will look like, like Steve, I 
suspect it will be at least more or less close to the framework 
agreement. That will not be the deal that I wanted, but it may 
be better than the alternatives. In fact, I suspect it is, and 
glad to talk about that more if you want to.
    But the point that I really wanted to make is that I think 
that we need to be thinking about this regional issue. That is 
the point I keep harping on.
    And I hear Dr. Doran tried to put words in my mouth. I am 
now going to take them out and give them back to him. I don't 
believe that American guarantees right now are going to be 
enough for our allies in the region. I think that they are 
going to want to see action. That is what was lacking in Camp 
David. I think they need to see us pushing back on the 
Iranians. And, quite frankly, I think the Iranians need to see 
us pushing back on them in the region as well. If we don't, I 
think they are going to assume that we are going to use this 
deal as a get-out-of-the-Middle-East-free card and walk away.
    That being the case, I think we need to think hard about 
where we do push back on them, and my candidate for that is 
Syria. Iraq is much too fragile. The Iranians have far too much 
influence. If we fight the Iranians over Iraq, we will break 
it, and we cannot afford that. Yemen is the wrong place. We 
shouldn't be getting into Yemen. We should be helping our 
allies to get out of it.
    Syria is the place that makes the most sense. Iran has 
interests there. They are not all-consuming as in Iraq. We have 
important allies. We have regional states that want us to do 
so. There are clearly ways to handle Syria differently.
    And, in fact, I will just close by saying, the policy that 
the President and that Chairman Dempsey outlined in September 
of last year is a perfectly reasonable, functional policy. It 
is exactly the policy I think we ought to be pursuing. The 
problem is we have walked away from it. In the context of a 
deal, I hope that the administration will go back to that 
policy and actually make it work.
    Mr. Bera. Thank you, Dr. Pollack.
    Chairman Royce. I think we are out of time.
    Shall we go to Joe Wilson, South Carolina.
    Mr. Wilson. Thank you, Mr. Chairman.
    And thank you all for being here today on this 
extraordinarily important situation that is developing. And 
amazingly enough, I share the concerns expressed by the 
editorial of The Washington Post. To quote the Washington Post, 
and I quote, I want to quote it correctly:

        ``If it is reached in the coming days, a nuclear deal 
        with Iran will be, at best, an unsatisfying and risky 
        compromise. Iran's emergence as a threshold nuclear 
        power with the ability to produce a weapon quickly will 
        not be prevented. It will be postponed by 10 to 15 
        years. In exchange, Tehran will reap hundreds of 
        billions of dollars in sanctions relief it can use to 
        revive its economy and fund the wars it is waging 
        around the Middle East.''

    And, Dr. Makovsky, I sadly agree so much. This is worse 
than Munich. There might have been, as you were indicating, an 
explanation for Neville Chamberlain's actions. But I am just 
very concerned. The President's actions, the weakness that is 
being exhibited, is just bizarre. And for a President who has 
been fixated, properly, on not having nuclear proliferation 
throughout the Middle East, it is creating a legacy of 
proliferation.
    With that in mind, what are the consequences for regional 
stability if the administration does cave in to Iranian 
demands?
    Mr. Makovsky. Thank you, Congressman. By the way, I wasn't 
here to justify Neville Chamberlain's actions. I was just 
trying to explain them.
    Mr. Wilson. You were showing a differentiation.
    Mr. Makovsky. Right. Exactly.
    I agree. I think the Washington Post editorial this week, I 
thought was excellent, and I commend you for quoting that. I 
think that I agree that this will--we talk about alternatives 
to the deal, as Ranking Member Engel is raising. I think these 
are bad choices, so you have got to figure out what is the 
least terrible choice, and there are going to be bad 
alternatives all around, there is no question about it.
    So I think, again, one of the worst consequences of this 
deal--not the alternative--a consequence is rising tension in 
the region. When you have a weaker United States, I think we 
all agree on that, all the panelists agree that without a 
strong United States with credibility, the countries are going 
to take a lot of actions into their own hand, including on the 
nuclear front.
    And, again, there is just going to be rising tension and a 
greater risk--I am not predicting it--but not only a major 
conventional war, but possibly at some point of a conflict, 
whether intentionally or through miscalculation, a nuclear 
conflict in the region because there will be a lot more 
countries with nuclear weapons, and it could draw us in as 
well.
    Mr. Wilson. And I appreciate you raising the concern.
    And, Dr. Doran, Mr. Rademaker, in a prior hearing, a former 
U.N. weapons inspector discussed the strategy that Saddam 
Hussein used to evade inspectors, both on the ground in Iraq 
and at the U.N., noting that ``The inspectors reported they 
could do little of their job under the conditions Iraq 
permitted them to operate.''
    Do you fear a similar outcome with Iran? Given the Iraq 
experience, what roadblocks do you anticipate inspectors would 
face, both on the ground and at the U.N.?
    Mr. Doran. I think that, as Steve pointed out, the Iranians 
keep reopening the issues. And we need to understand that 
behind that is their radical ideology of wanting to overturn 
the international system, which they regard as completely 
unjust. They don't ever feel bound--what I am trying to say is 
that their attitude toward this negotiation is indicative of a 
mindset where they don't feel bound by any commitment that they 
make to us because they feel that we represent an unjust system 
to begin with.
    So I think that we can expect them to cheat at every 
opportunity. I think we can expect them to impede us at every 
opportunity. And I think that even if they came to this with 
good will, which they don't have, the system itself is one that 
is based on distrust and a coercive dictatorship. And so there 
isn't a culture of transparency and openness in it to begin 
with. We are being promised unprecedented openness and access 
and so on. The system itself just can't deliver that.
    Mr. Rademaker. Congressman, there is a long, long history 
of determined aggressor states, determined cheaters flummoxing 
international inspectors. There is a wonderful Winston 
Churchill quote. I don't have it in front of me, but it is an 
absolutely wonderful quote describing how Hitler completely 
flummoxed the League of Nations weapons inspectors who, prior 
to World War II, had the mandate of inspecting whether Nazi 
Germany was deploying certain prohibited weapons in the 
Rhineland. And Hitler just ran circles around them, because he 
stumped them.
    You mentioned the example of Iraq. I am speaking here as a 
legal matter. I was a commissioner of UNSCOM, which was the 
U.N. weapons inspection organization for Iraq. The legal 
authorities given to UNSCOM by the U.N. Security Council were 
vastly stronger than anything that the inspectors are going to 
have in Iran and anything that is under discussion. Iraq was a 
defeated state. Saddam Hussein had been defeated in the first 
gulf war.
    The U.N. imposed a highly intrusive weapons inspection 
mechanism on him, and he still ran circles around it. And they 
had, talk about anywhere/anytime access, I mean, those guys 
could bust down doors, they could go anywhere they wanted; 
seize computers. I mean, it is inconceivable that the 
inspectors in Iran are going to have the same sort of legal 
authorities.
    Saddam Hussein was still able to conceal things from them. 
I mean, if the Iranians wish to conceal, they are going to have 
ample opportunity to do that under any imaginable inspection 
mechanism.
    Mr. Wilson. Thank you all. And, again, our concern too for 
the people of the Iran. And so I am just hoping that, indeed, 
the President will change course. Thank you.
    Chairman Royce. We are going to go to Mr. Gerry Connolly of 
Virginia.
    Mr. Connolly. Thank you, Mr. Chairman.
    Mr. Rademaker, I am not sure where you are going with that. 
By the way, the rearmament in Germany in World War II, as a 
student of history myself, I mean, had a lot more to do than 
Hitler running circles around inspectors. It had a lot more to 
do with the fact that the West was just tired and was not going 
to challenge them. Thus the reoccupation of the Rhineland and 
the remilitarization, they knew what was happening. He wasn't 
hiding the fact he was rebuilding an air force and expanding 
the military with universal conscription and the like, and, 
clearly, the Ruhr was up and running.
    I mean, these were not secrets that were kept from 
inspectors. It was actually about political will. It was about 
whether you are going to turn a blind eye to all of that 
because you were weary of war. And World War I had been so 
traumatic, especially in France and Britain, that hopefully, 
wishful thinking would make it all go away, or there would be 
some modus vivendi we could all accept. They were wrong. 
Churchill on that one was right. He was wrong on most 
everything else, but he was right about that.
    But what is it you are proposing? Should we therefore say 
we shouldn't have an inspections regime, we shouldn't have the 
ability to evaluate, because it is fruitless, people can run 
rings around them?
    Mr. Rademaker. Congressman, I was nearly responding to 
Congressman Wilson's question about whether we should take--
what conclusions we should draw from the Iraq experience. And 
the Iraq experience was that, even with highly intrusive 
inspection authorities, it is possible for determined cheaters 
to withhold information.
    Mr. Connolly. I understand. But where does that take us? 
Does that mean we should give up on--we shouldn't even bother 
because they can run rings around us?
    Mr. Rademaker. I mean, it is a fair question. I think where 
it takes you is you negotiate to get the robust legal authority 
you can possibly get, you exercise that authority, but you 
still have to view the results with skepticism.
    Mr. Connolly. With skepticism.
    Mr. Rademaker. Because it is possible for a determined 
cheater. And Iran has a long record of secretly proceeding with 
nuclear development activities that are only exposed by exile 
groups or foreign intelligence agencies.
    Mr. Connolly. Right.
    Mr. Rademaker. So we just have to approach the Iranians 
with great skepticism given their track record.
    Mr. Connolly. There seems to be precedent for it in the 
region.
    Mr. Makovsky, did you want to comment?
    Mr. Makovsky. Just a quick thing, Mr. Congressman, just on 
that. I think the inspection issue that Steve raised is just 
further challenged by the fact that we are permitting in this 
emerging deal, based on what we know, an extensive 
infrastructure in Iran to remain in place. If we had demanded a 
U.N. Security Council resolution, like our policy had been 
until a couple years ago, a complete dismantlement of their 
infrastructure, it would have made inspections easier.
    Mr. Connolly. Dr. Makovsky, unfortunately, my time is 
limited. I agree with you, but I want to come back to Eliot 
Engel's question. What is the alternative?
    The fact of the matter is we allowed this drift for 8 
years. The previous administration, we started out with a 
handful of centrifuges, now we have 15,000, 16,000. They have 
hardened processing plants. They have significantly increased 
the amount of enriched uranium and other fissible material. And 
so we are where we are.
    I wish we had done all of that, like Mr. Engel was saying, 
a long time ago so that we would have stopped it dead in its 
track. The Israelis could have done it too before things got 
hardened. Now they can't do it without us, not efficaciously. 
But if you turn the clock back, Prime Minister Netanyahu 
thought it was such an existential threat, why didn't he do 
then what Israel had done in Syria and had done in Iraq? Why 
did he not take the kinetic option, one wonders.
    Mr. Makovsky. I think it is an excellent point that you 
should raise to him when you see him.
    Mr. Connolly. I will.
    Mr. Makovsky. But I would say that I wouldn't discount, 
although many I think in Washington and certainly the 
administration believe the Israelis will no longer strike. I 
think there is still a decent likelihood that they still will 
at the last moment, that they feel compelled to, because they 
will feel no alternative. I am not predicting it, I am just 
saying----
    Mr. Connolly. Right.
    Mr. Makovsky. And that could also be a consequence of this 
deal.
    Mr. Connolly. Well, one wonders, because they have had that 
option before and things got worse, not better.
    Mr. Makovsky. That is right.
    Mr. Connolly. Let me just ask a final question of you, Mr. 
Makovsky. You indicated, and it is a perfectly fair 
proposition, that when you look at the military option versus a 
negotiated deal that may or may not be cheated against and so 
forth, maybe the military option actually is better. But we are 
going to have General Hayden here I think next week who has 
said if you exercise the military option, all it will do is 
accelerate the nuclear development in Iran and now you have no 
leverage, the West has no leverage. And unless you are prepared 
to do it every 2 years. And, of course, we are not even talking 
about diplomatic and terrorists and all kinds of other 
ancillary consequences that may flow from that.
    Is that a fair proposition too, that actually, despite what 
we desire, the opposite could happen?
    Mr. Makovsky. Very possible. I wasn't trying to say that it 
is a slam dunk, to use a common phrase, a famous phrase. I am 
just trying to give you the other side, is what I am trying to 
say. I have also spoken to Air Force generals and others who 
believe that actually we do have a viable strike. It has always 
been our policy, by the way, that we do have this capability, 
and it is possible that they could race. But it is also very 
possible--but I also think it is more likely that if they do--
if we agree to a deal that allows them to get nuclear weapons 
at some point, that other countries in the region are going to 
race to it before that even happens.
    So I think that is even a more likely outcome than you 
mentioned about the Iranians racing to a bomb. I think we can 
feel very confident other countries will get nuclear weapons if 
we don't stop this before it spreads in the region by whatever 
means. But there are bad consequences to anything we do here, 
there is no question about it.
    Mr. Connolly. Yes, but it brings me back--and I will end 
with this, Mr. Chairman--but it brings us back to the ultimate 
proposition. We have got many unattractive options in front of 
us. The question is a negotiated deal that keeps the P5+1 
together and that rolls back and freezes in place their nuclear 
development program for a period of time, we hope it can be 
renewed, versus exercising, saying, we give up on all that, we 
are going to exercise a military option and hope for the best.
    Mr. Makovsky. Well, I think if you--you are together, but 
together in a terrible arrangement that is going to cause a lot 
more problems. I don't think that is a positive end. And I am 
not saying necessarily that we have to turn to a military 
option, but unless we at a minimum have a very credible one and 
ratchet up the sanctions, which I believe we could do, 
certainly with the oil market the way it is, I think if we did 
that, there is a chance of a better deal. But, again, I think 
we shouldn't just think about alternatives, we have to think 
about consequences.
    Mr. Connolly. Thank you, Mr. Chairman.
    Chairman Royce. Thank you. Thank you very much, Mr. 
Connolly.
    Now we go to Mr. Darrell Issa of California.
    Mr. Issa. Thank you.
    Well, I am going to pick up where Mr. Connolly left off, 
but he won't be surprised there may be a slight twist on how I 
hold the blade.
    Mr. Rademaker, let me understand a premise that I think you 
have here, and tell me if I am off, the question of do we take 
the deal or don't take the deal. The fact is, if the deal is to 
allow the equivalent of the entire World War II Luftwaffe 
sitting on the ground with the promise that although the fuel 
tanks are right next to the planes, they won't fully load the 
planes and the bombs for 10 years, that is kind of where we 
are. We are letting them have all the weapon of war, the launch 
systems, the missiles, the fissile material. What we are saying 
is, the time it takes to load these aircraft and get them in 
the air is what we are counting on. Isn't that sort of the 
equivalent?
    Mr. Rademaker. Yeah, I think that is a pretty good analogy. 
The administration is saying, today they could load one plane 
with one bomb in 2 to 3 months, and we want to extend that to 1 
year for the next 10 years, but then after that it would be an 
entire fleet that they can load with dozens of bombs, and we 
will worry about that in 10 years.
    And the question is, is that sort of a wise--I mean, if you 
are worried about the next 10 years, yeah, you have improved 
your situation for 10 years, but beyond that a vastly worse 
situation. And then if you want to do something about that in 
10 years, you face the additional problem that the other side 
will say: But you are violating your agreements. You promised.
    Mr. Issa. The French, I think, said that for several hours 
in the beginning of World War II.
    Mr. Rademaker. Right. It got them a long way, didn't it?
    Mr. Issa. Dr. Makovsky, I saw your head shaking yes, so I 
will take you next for obvious reasons.
    But, Doctor, if we go, I think, to Mr. Rademaker's 
assumption, which is that trying to inspect a fleet of weapons 
of war and make sure they are not quite loaded and ready to 
fire at us, changing that to these weapons of war, you need to 
dispel them, you need to be away from them, you cannot have 
those, which was a position--and this is where Mr. Connolly, I 
am sorry he left.
    The Bush administration said, you can't have weapons of 
war, and they were playing with the no 20 percent, no 
enrichment, no enriched there. Aren't we playing now only this 
last-minute game? And if so, does or can we get the world--and 
we are not talking about Israel, we are not talking about the 
United States, we are talking about mostly Europe--can we get 
them back to a point of understanding that the only way to have 
a verifiable deal is to have a deal in which there is zero 
tolerance for these weapons or near weapons of war?
    Mr. Makovsky. It is a good question, Mr. Congressman. Look, 
obviously, where we are, you are right. I guess, if we had to 
use a baseball analogy, we might be in the bottom of the ninth, 
I still believe with one strike left you still have a chance 
sometimes to win a ballgame, and I wouldn't want to give 
anything up. In fact, I am from St. Louis. That is exactly what 
we did in the 2011 World Series. And I would say that----
    Mr. Issa. I am a Clevelander. We cite all different years.
    Mr. Makovsky. I apologize for that.
    But I think we shouldn't underestimate--Ranking Member 
Engel had raised this before--we shouldn't underestimate two 
things. That American leadership, it is your body, Congress, 
which led on sanctions, and that the administration on some 
issues, and this committee, certainly, Mr. Chairman and the 
ranking member, you guys led on sanctions on banking, on a lot 
of things, and you got the world to go around with you. And by 
the way, the odds were great on that.
    And I think that if there is a deal concluded and there is 
an overwhelming majority of the Members of Congress that oppose 
this deal, I think it sends a strong signal, and I think there 
is still a chance, then.
    Mr. Issa. So if I am going to summarize--and, Dr. Pollack, 
I want to hear from you for a moment, because we have given you 
a pass, and you need to get back to work--the fact is, we are 
negotiating a deal that is not verifiable, sustainable, and 
reliable, and it is not nearly the kind of oversight that we 
had against Saddam when, in fact, Saddam was shipping millions, 
hundreds of millions of gallons and barrels of oil, not even 
including the weapons program. It is very hard to take a large 
independent country and supervise it.
    Dr. Pollack, getting back to something that is verifiable, 
that makes sense, that can, in fact, be restrained, how do you 
see us getting from where we are--let's assume for a moment 
that Congress rejects a deal or that the President doesn't come 
up with one--how do you see us getting to one that the other 
gentlemen at the table could support as defendable and 
verifiable?
    Mr. Pollack. Can my answer include the building of a time 
machine, Congressman?
    Mr. Issa. Yeah. Go for it.
    Mr. Pollack. That was a joke.
    I am in agreement with all of my panelists. I think the 
administration did very well in getting the Iranians to the 
table. I give them a lot of credit for that. As I said, I have 
been disappointed in how they have handled the negotiations.
    I think that it is theoretically possible perhaps to get a 
stronger deal even from where we are now. I think that it would 
require a willingness on the part of the United States to walk 
away from the table, but also to be able to make the case to 
our allies--and I think we have certainly got a number of them 
already onboard--and our co-negotiators in the P5+1 that what 
we are talking about now is simply a far cry from what is 
reasonable for us to accept.
    That will be hard, because of how much history we have. We 
have gone this far, and, frankly, a number of the other P5+1 
countries, I think, have been surprised at how willing the 
United States has been over the course of the last year to make 
some of these concessions that the Iranians wanted. It will be 
difficult to roll that back. Perhaps not impossible, but 
difficult.
    But, again, my read of history, Congressman, is that it 
requires a remarkable degree of leadership to fundamentally 
change course on an issue where we have gone so far down the 
road, and I am skeptical that that is going to happen. I 
suspect that we are going to get a deal very much like the one 
that is being talked about, one more or less like the framework 
agreements.
    And, unfortunately, I find myself much more in agreement 
with Congressman Engel, which is that I wish we weren't here. 
It is a much weaker deal than I think we could have had. But, 
nevertheless, I still suspect--and as I said, I want to reserve 
judgment until I actually see it--I still suspect that it will 
be better than the alternatives, because as Congressman Engel 
and Congress Connolly pointed out, those alternatives are even 
worse.
    Mr. Issa. So we are going to take the Chamberlain deal, 
even though it is not the deal we should have, because it is 
the best deal he came back with?
    Mr. Pollack. I would object, obviously, to the analogy, 
sir.
    Mr. Issa. Thank you.
    Chairman Royce. Okay. We are going to go to Mr. Brad 
Sherman of California.
    Mr. Sherman. Yes. I would ask the witnesses to give your 
advice to Congress. We want to control foreign policy, all of 
us in this room, one way or another. You would like to be 
advising the President. The President isn't listening to you. 
You at least have us. If you compare him to Neville 
Chamberlain, he certainly isn't listening to you. But whatever 
is going to happen in Vienna in the next 12 hours is going to 
happen.
    So you posit a world in which we walk away from a bad deal, 
we sign a good, we do this. The President is going to do what 
he is going to do, and he isn't going to listen to us in the 
next 12 hours.
    So your advice to us has to be: What should Congress do? 
Not in some mythical world where Dr. Pollack has a time 
machine, not in some mythical world where Ronald Reagan is 
resurrected and is the President of the United States on the 
day we vote on the deal, but rather what do we do if the 
President says, ``This a reasonable deal, Iran has signed a 
reasonable deal, and Congress is being unreasonable''? Do we go 
on a codel to Rome, convince the Italians to prevent Eni from 
doing business with Iran on a very profitable basis, because, 
although the President thinks it is a good idea for them to 
make the profits, some of us think it is a bad idea?
    I don't know if any of you want to join us on that codel. I 
don't think we would be successful. I realize you have 
comments, but I have got a limited amount of time.
    I do want to set the record straight. The Bush 
administration refused to have sanctions on Iran. We passed a 
lot of them out of this committee. He blocked them in the 
United States Senate. And the Iran Sanctions Act was 
disregarded and violated again and again.
    I join with Dr. Pollack in a fear that this is all about a 
pivot out of the Middle East. The Middle East is frustrating. 
Confrontation with China is exciting. The Middle East has un-
uniformed terrorists. Confrontation with China over islands, 
that is the kind of war we have had great glory in, especially 
if we don't wage it, but rather just confront and win it the 
way we won the war against the Soviet Union.
    And right now everything that the Pentagon is doing is 
figuring out a way to take money away from any forces that 
might be useful in the Middle East and design new weapons to 
shoot down Chinese planes over islands--no, they are really 
just rocks--that don't have any oil, but if they had any oil, 
the oil would belong to Japan, which by the way, is spending 
almost nothing on its national defense. That is where we are 
pivoting to.
    This deal needs to be looked at in several phases. The 
first phase is that first year, where it has good and bad 
points. We get the stockpiles out of Iran, we get two-thirds of 
the centrifuges mothballed. And then, as Mr. Rademaker points 
out, you get to year 12 where it is an absolute disaster. So 
you have the good, the bad, and the ugly.
    The good is those centrifuges and stockpiles. The bad is 
that they get that $120 billion-plus signing bonus, which they 
will use for butter, which they will use for graft, they are 
very good at that, which they will use to kill Sunnis, some of 
whom deserve to be killed and some of whom definitely do not, 
and the remainder they will use to attack Israel and the United 
States.
    But the issue before us is: What do we do as a Congress? 
And we actually shouldn't just say we--it is a very 
sophisticated question, because we have three possible votes. 
Do we vote to approve? Do we vote to disapprove? Do we vote to 
override a Presidential veto of a disapproval resolution? Those 
are three very different votes. And since the President isn't 
listening, perhaps you can give advice to us as to how we 
handle those three circumstances.
    The first one is so easy, I won't ask the question, should 
we vote to approve? If we vote to approve then we have to the 
greatest extent possible locked the United States into a deal 
which in year 12 is a nuclear Iran. So we shouldn't do that. 
The question is, maybe we should vote to disapprove.
    The question is, do we override a veto? If we override that 
veto, then those stockpiles are not shipped out of the country, 
those centrifuges are not mothballed, and we go to war with 
Iran in which Congress versus Tehran with the White House on 
one side or the other, I am not sure.
    If the President is telling the world that Iran has signed 
a reasonable deal and deserves sanctions relief, what should 
Congress do? Dr. Pollack.
    Mr. Pollack. I was afraid you were going to call on me, 
Congressman.
    First point, I think the time for Congress to make a 
difference is now, before the deal gets presented, because I 
think that once the deal is in hand, it is going to be very, 
very----
    Mr. Sherman. Dr. Pollack, you don't have the time machine. 
The President gave his final instructions to his negotiators 
hours ago. No one in Vienna is watching this presentation right 
now. If they are, it is such a junior level foreign service 
officer that they are not being listened to. If the President 
heard from Congress or from you or from me, that was prior to 
this moment. No time machines.
    Mr. Pollack. I agree with you, Congressman. But if for some 
reason we can't come to agreement and we do----
    Mr. Sherman. We will bring you back for that advice. Assume 
a deal is announced in 12 hours and it goes online----
    Mr. Pollack. I come back to the point that you and 
Congressman Engel and Congressman Connolly make, I think the 
deal is disappointing, but I certainly wouldn't--I would not 
advise you to override the veto because, again, I think that 
the alternatives are worse than this. But I do want to come 
back to the point----
    Mr. Sherman. I wish you wouldn't say ``this,'' because it 
is really three deals. It is the first year, it is the middle 
year, it is the 12th year.
    Mr. Pollack. We don't know exactly what the deal is going 
to look like. But if we assume that it is----
    Mr. Sherman. The 12th year is ugly. We have got to override 
the deal by then.
    Mr. Rademaker.
    Mr. Rademaker. If the final deal looks like what we have 
been told it will look like, my advice to the Congress is use 
its independent judgment. The President can say he thinks it is 
a reasonable deal. But I think Congress needs to look at it 
independently----
    Mr. Sherman. We----
    Mr. Rademaker [continuing]. Dispassionately. I am not a 
Member of Congress, but if I were looking at that detail, I 
would have to vote no on it.
    Mr. Sherman. Remember, we have got three separate votes. 
Obviously, if there is a resolution to vote for approval, you 
and I, and I think just about everybody, are going to vote no. 
If that is the advice you are giving us, you are giving us 
advice on an easy question.
    Mr. Rademaker. I don't know whether in the Republican-
controlled House a resolution of approval is actually going to 
be put forward.
    Mr. Sherman. It will be put forward if the Speaker thinks 
it will be a good idea. And he will be getting advice from our 
chairman. Go ahead.
    Mr. Rademaker. But if it is a resolution of disapproval, 
you know, my recommendation would be a no vote. We hear that 
the alternatives are worse. And it is usually described as 
either this deal or war. We have all these----
    Mr. Sherman. No, no, no, no. With this President, you don't 
get war. This President isn't going to say: Oh, Congress was 
right; I was wrong. I am bombing.
    Mr. Rademaker. But the point I want to make to you is you 
have all these wise men who, including President Obama's former 
Iran advisers, who are saying: Well, actually, it could be this 
deal and the war. And, in fact, Congress should vote to 
authorize use of force in the event not of Iranian cheating but 
actually in the event that Iran exercises some of the rights 
that are going to be granted to it under this agreement. That 
is what they say.
    Mr. Sherman. That would be--I am not sure that is actually 
what they are proposing, knowing those individuals. But I think 
my time has expired.
    Mr. Rademaker. I can read you the language.
    Mr. Sherman. But it is interesting, yes.
    Mr. Rademaker. I quote it in my testimony.
    Mr. Wilson [presiding]. Thank you, Mr. Sherman.
    We now proceed to Congressman Ted Poe of Texas.
    Mr. Poe. Thank you, Mr. Chairman.
    And thank you all for being here.
    If I understand, the policy of the U.S. goes back all the 
way to the Carter administration, that, as you said, Mr. 
Doran--or is it Doran?
    Mr. Doran. The Irish say Doran. I say Doran. So I go by 
either.
    Mr. Poe. To, the U.S. is going to be the guarantor of 
stability in the Middle East region. Is that a fair statement 
of what you said?
    Mr. Doran. Yes.
    Mr. Poe. And the Carter doctrine, as Mr. Rademaker talked 
about, was that the United States is committed to making sure 
that the Persian Gulf region is safe from outside influence, 
even using military force if necessary, something to that 
effect. As I see this whole situation, at the end of the day, 
the deal will be Iran will get nuclear weapons. They are also 
developing an intercontinental ballistic missiles, as we all 
know, to send nukes, not conventional weapons or bombs, in 
them.
    At the end of the day, the deal will be that they will be 
able to export all of the oil that they have, oil revenue that 
is used, in my opinion, to fund their terrorist enterprises 
throughout the world since Iran is the number one terrorist 
sponsoring state in the world. What a deal this is. I mean, we 
are not dealing with nice people or honest people. The United 
States and the West is blissfully ignorant of who we are 
dealing with. We are dealing with a snake oil salesman, and he 
is going to be able to sell us the snake oil. And we are going 
to buy it and say we won because we got a deal.
    The Ayatollah has said as recently as March, if I can find 
the quote, it is just three words, ``Death to America.'' Now, I 
don't think he is going to change his mind about being the 
Supreme Leader and about his policy that he wants us all to 
die: Death to America. This is a very, very serious crisis that 
is taking place worldwide. And I am not so sure that we are 
really dealing with this as we should be because, at the end of 
the day, they are going to get what they want.
    And I am concerned, just like some of my friends on the 
other side have said, about what is going to happen next. Next 
year, the year after next.
    I say all that to say maybe our policy should be different. 
Why isn't it our policy that we promote in Iran free elections, 
a regime change if that is the will of the people in Iran, to 
change who is running the show over there? Why isn't that part 
of our policy? We had the opportunity in 2009 to help the 
Iranians, but we did not. So is that discussed--you four guys 
are the experts--is that discussed anywhere by anybody in the 
administration or the West, let's have free elections and let 
the Iranian people decide who will be in charge? Anybody can 
answer that question.
    Mr. Makovsky. I will just jump in real quickly and then 
turn it over to Mike Doran.
    On your last point, Congressman, I don't hear a lot of 
discussion. I do think that is the ultimate solution to this is 
not sanctions, not military option; it is regime change. But I 
think I can say with more confidence that if there is this 
deal, then it will strengthen the regime. And you will have 
less, it will be less likely that there will be regime change 
with this deal. This will be one of the consequences of this 
deal. Their policy will be vindicated. They will be able to 
oppress. They will have a lot more money, not just for butter 
but to oppress their people internally. And they are one of the 
leading oppressors in the world. And they will essentially gain 
immunity from attack from outside once they achieve their 
nuclear weapons capability.
    So I think this deal certainly strengthens the regime and 
makes what you are saying, regime change, which I think we all 
think would be much better, far less likely.
    Mr. Poe. Well, I agree with you. I think regime change is 
the answer, free elections. We should support a regime change 
with free elections and let the people of Iran make that 
decision.
    And it will strengthen the Ayatollah and the mullahs who 
have an iron fist on the people, persecuting their own people, 
killing their own people; they are hanging throughout Tehran--
almost daily--people that disagree with the government.
    I hope we get there.
    And I yield back because you are taking it back. I will 
yield back.
    Mr. Wilson. Here, here. Thank you, Judge Poe. We appreciate 
your insight particularly on behalf of the people of Iran too.
    And we now proceed to Congresswoman Lois Frankel.
    Ms. Frankel. Thank you, Mr. Chair.
    First, Mr. Chair, I would just like to say thank you to 
Josh Cohen. This is his last full committee. He has been my 
adviser. He has done a great job. He is going off to Harvard, 
to the Kennedy School. And we wish him well.
    Well, this has been a very troubling discussion. First of 
all, thank you all for sharing. I mean, you can't help but 
after listening to all this feel a lot of anxiety. So, first, I 
want to ask a hypothetical, if it is possible for you to 
answer, which is I think we went into this, the P5+1, I think 
it was November 2013 when they first agreed to the plan that 
is, this temporary plan that is currently in place, and then it 
began in January 2014. Had this joint plan not been in place, 
do you think by now we would have had to take military action 
to stop a nuclear weapon?
    Mr. Doran. I don't think that is true. And I also don't 
think that the--I also don't think that the alternative to this 
deal is necessarily war. And that is because of the point that 
Mike Makovsky made: Iran is a third-rate power and we are a 
superpower. And if we behave like a superpower, and we actually 
dedicate all instruments of national power toward a goal like 
preventing Iran from getting a nuclear weapon, it has an effect 
on the thinking of the Iranians.
    I notice that when Prime Minister Netanyahu drew his red 
line, the Iranians were very careful to creep right up to it, 
but they never went over it. I suspect that if we made 
ourselves clear and we enhanced our credibility, that we would 
see that the Iranians would be much more circumspect. They are 
trumpeting their anti-Americanism right now because they know 
there is absolutely no consequence for it.
    Ms. Frankel. Does this mean that you feel that the better 
alternative now would be to try to increase sanctions?
    Mr. Doran. Absolutely.
    Ms. Frankel. Rather than take the deal?
    Mr. Doran. Absolutely. You have to disapprove the deal. And 
we have to step back from the negotiations. We have to show the 
Iranians that we are willing to negotiate in a much more 
aggressive fashion. And we need to take care to pull our allies 
together. It really isn't true that the P5+1 is abandoning us, 
and if we don't make this deal, we have lost them. We are 
pushing them away from a sensible policy. I had in my 
institution a couple weeks ago a delegation of French 
politicians who came through, people who had traditionally been 
very tough on Iran. And they said, and this is a paraphrase, 
but they said: Basically, you guys have played us for suckers. 
You have put us in the position now, we who want to hold out 
for a better deal, you have put us in the position of angering 
President Obama by not following his lead on an 
accommodationist policy and losing the possibility of good 
economic contracts in Iran because we are going to be punished 
by the Iranians as well. We are at the back of the line for the 
contracts. And so they said what suckers we are. So they are 
shifting now because of our policy. What we need to do is 
define a red line and get the P5+1 behind it, especially our 
European allies, and then stick to it.
    Ms. Frankel. Do you other gentlemen agree with that? Or 
have a different opinion?
    Mr. Rademaker. The only thing I would add is I do think we 
have to take a much firmer line. But I am not sure, people talk 
about walking out of the negotiations. I think what that really 
means is a willingness to not agree to terms that aren't 
acceptable. But I don't think we need to slam the door on 
diplomacy. I think in terms of alliance management, just our 
international, you know, maintaining international consensus, 
there should remain a willingness to achieve a negotiated 
solution. That would be the ideal solution. But it should be a 
negotiated solution on acceptable terms, not the terms that 
have been agreed to at this point and which apparently we are 
satisfied with the Iranians reopening questions where they are 
dissatisfied, but we--maybe the Iranians are right, maybe 
President Obama thinks we need this deal more than they do 
because he is not willing to reopen disadvantageous agreements 
that have already been reached. I don't know why that would be 
though. It seems to me we can reopen and try and get a better 
outcome on things like the sunset clause.
    Ms. Frankel. Dr. Pollack, you may answer that but I just 
want to add something to that question, which is, do you see 
the potential--let's say we are at the negotiating table, and 
we just said, no, we can't, this is not the deal we are going 
to accept. Do you see the potential of Iran then again moving 
toward a nuclear weapon, taking further steps?
    Mr. Pollack. Congresswoman, first, I tend to be much more 
where Steve Rademaker is than my friend Mike Doran. I think 
what Prime Minister Netanyahu proposed of kill these 
negotiations, go back to sanctions, force them to come back to 
the table later, I do not think that will work. I think that it 
is highly unlikely that we will be able to hold the sanctions 
in place, that we will be able to hold international opinion. 
As the guy at the White House who tried to hold the Iraq 
sanctions together in the late 1990s, I was shocked and 
appalled at how quickly international opinion turned against 
those sanctions when people decided that we were the problem, 
not Saddam Hussein, countries which previously had supported it 
legally and every way imaginable just disregarded them. I am 
fearful we will have something similar happen with Iran. I 
think the JPOA was worthwhile.
    And, finally, to come back to a point that Steve was 
making, by the same token, I don't think that it is necessarily 
the case that we have to look at it and say we have to agree to 
something by tomorrow. I don't understand why we can't take 
more time. A willingness to play out these negotiations and 
insist on the best terms possible, even given what we have 
already put on the table, I think is fundamentally different 
from, again, what Prime Minister Netanyahu proposed.
    Ms. Frankel. Thank you, Mr. Chair.
    Mr. Wilson. Thank you, Ms. Frankel.
    We now proceed to Congressman Scott Perry of Pennsylvania.
    Mr. Perry. Thank you, Mr. Chairman.
    Gentlemen, here we are again. As usual, I have to spend 
some of my time--I wish Mr. Connolly were still here so, as a 
student of history, I could remind him of something because I 
am sure he knows it, but I am always amazed by what I hear 
here. One of the first things that amazed me was that George 
Bush is responsible, and he is responsible because we didn't go 
to war with Iran from the same people that complain daily 
bitterly that we went to a war with Iraq and Afghanistan.
    And then I hear that a veto override by a Republican 
Congress is tantamount to a declaration of war with Iran. So I 
guess we can be prepared for that narrative.
    And, finally, I would like to remind Mr. Connolly that it 
was the Clinton administration, as I remember, in May 1998 that 
waived the sanctions, the Iran-Libya Sanctions Act, which 
resulted in an increase in Iran's terrorism, nuclear 
proliferation, and European investment in Iran. So I will have 
to remind him of that on the floor.
    I do have a couple questions. If you can tell me, 
gentlemen, what are the consequences for regional stability if 
the administration were to cave to the Iranian demands to lift 
the U.N. arms embargo?
    Go ahead, Mr. Doran.
    Mr. Doran. It is catastrophic. And I think we need to see 
already that the Russians are moving and see themselves in 
competition with us for Iran. This is a dimension of the thing 
that hasn't got much attention, which is that the, it is not 
just our allies that see us as tilting toward Iran, it is also 
the Russians as well. And the Russians would much prefer to 
have Iran in their sphere than in our sphere. So we can see 
them, I think, moving quite aggressively to establish a very 
strong military-to-military relationship with them.
    There is another dimension of this thing as well that 
deserves note, and that is because of the sunset clause but 
also the very large amount of facilities that we are leaving in 
place, the fact that we are recognizing Iran as a threshold 
nuclear power. It means that the knife is never, we have never 
taken the knife away from our neck. So I think most people in 
the region, and I would include myself in this too, believe 
that the administration, without admitting it, is already 
making calculations, tradeoffs in their mind of not willing to 
challenge Iran in Syria and in Iraq and Iranian interests in 
those areas for fear that it will tank the nuclear 
negotiations. That calculation never goes away.
    The administration wants us to believe, oh, we pocket, we 
get this agreement, this nuclear negotiation, good, bad, 
whatever you think of it, and then we move toward regional 
stability. It doesn't work that way because the minute we start 
to challenge them, say, with Assad, they will threaten to--they 
will threaten to pull out of the agreement on the nukes. And 
that is especially true because we have front-loaded it with so 
many goodies----
    Mr. Perry. I personally cannot separate the two. I can, I 
guess, from a negotiation standpoint. But as a tenet of the 
negotiations themselves, I don't understand the nation that 
separates those issues.
    Let me ask another question, what has the President and the 
administration been doing to maintain or strengthen the current 
sanctions regime regarding our international actors during this 
period of time? Because we understand that it is eroding away. 
That is yet another reason why we must accept this deal. What 
have they been doing to make sure that we have got that right 
there just in case?
    Mr. Doran. If I could just quickly, the administration 
wants the new economic relationship with Iran. Its calculation 
is that it wants to create a mutual dependency because that is 
the thing that ultimately is going to moderate the behavior.
    Mr. Perry. You got to say that in regular English. So they 
are not doing much to----
    Mr. Doran. They are not doing anything because they----
    Mr. Perry. Yeah.
    Mr. Doran [continuing]. Because they want to relax the 
pressure.
    Mr. Perry. Right. Okay. So, listen, I don't know the tenets 
of this deal. Rumor has it, it is imminent. That is the rumor 
around that town right now. I will tell you that I am 
personally disgusted with the platitudes, the moral relativism, 
the explaining away by people around here in this room, some of 
them, this, in my opinion, administration misunderstands, 
underestimates, and is being duped by the nonrational actor 
that is Iran that is a known liar, is a brutal regime, and will 
continue to be that.
    To me, I liken this to giving a crocodile or a shark more 
teeth and somehow expecting it to do something different than 
it already does. I think it is just going to do more. I don't 
see any reason why it wouldn't. And going back further into 
history with the moral relativism, the platitudes, and the 
explaining away, I am sure you gentlemen can appreciate this, 
the United States did the same thing with the Soviet Union in 
World War II, who had a pact with Hitler before they were at 
war with each other, to do exactly what they did, which was 
divide up and conquer Europe. And while Hitler killed 6 million 
people, the Soviet Communists and their expansion, not only in 
Europe but into China and Vietnam and places all over the 
globe, are responsible for the deaths of 100 million people. 
And nobody says a thing about that. And that is exactly what we 
are getting into right now by explaining this away in this 
person's opinion.
    I thank you for your time, gentlemen. I yield back.
    Mr. Wilson. Thank you, Mr. Perry.
    We now proceed to Congressman Ted Yoho of Florida.
    Mr. Yoho. Thank you, Mr. Chairman.
    Gentlemen, I appreciate you being here. Let me start off 
with a question. Do you believe that in the wake of an 
agreement, the administration will push to delist the Iranian 
Revolutionary Guard as a proliferator? Dr. Doran?
    Mr. Doran. I think we have already seen indications that 
they are moving away from, they are moving away from holding 
their feet to the fire on that issue. Whether they will 
actually move to delist, I don't know. But they will start to 
explain away behavior. And they will start to impute to the 
Iranians and even to the Revolutionary Guard intentions that 
they don't actually have like, for instance, building a 
multisectarian political system in Iraq.
    Mr. Yoho. I am going to get to that. Given that the Iranian 
Revolutionary Guard at large is designated, pursuant to 
Executive Order 13382, as a proliferator, do you think the 
administration will delist them as part of an Iranian nuclear 
agreement? And the second part of that question is this would, 
in effect, legitimize many of the aspects of the Revolutionary 
Guard, creating a terrorist wing, being the Quds Force, and a 
political wing, the Revolutionary Guard, that would be open for 
business. Do you see that happening?
    Mr. Rademaker?
    Mr. Rademaker. I can't predict with confidence what the 
administration will do. But given that it is clear that the 
administration is committed to lifting nuclear-proliferation-
related sanctions. It will be a definitional question: Is that 
particular listing related to nuclear proliferation, or is it 
something else?
    Mr. Yoho. Nuclear proliferation.
    Mr. Rademaker. I think there is an issue of ballistic 
missile proliferation, conventional weapons proliferation.
    Mr. Yoho. WMD.
    Mr. Rademaker. But we understand those issues are now on 
the table too. So where this comes out, I don't know. But I 
guess what I am confident in predicting is it is going to be a 
pretty darn good deal for Iran.
    Mr. Yoho. I agree with that. And what would be the regional 
effect? I think we know what that would be. It is not going to 
stabilize it. And I think it would increase the hegemony of 
Iran in the whole Middle Eastern area. You know, I am baffled 
by this whole nuclear negotiation.
    Dr. Pollack, you said the administration did a good job of 
bringing Iran to the table. What was the purpose of that? Can 
you take us back----
    Mr. Pollack. The purpose, Congressman, was to try to 
prevent them from acquiring nuclear weapons.
    Mr. Yoho. Because I have right here that President Obama 
says, 28 times promised Iran wouldn't get a nuclear weapon. So 
we have moved from, and that is what I remember, this is to 
prevent Iran from getting a nuclear weapon. Now we are at, we 
are going to try to slow it down. Just real quickly, do all 
four of you think Iran will have a nuclear weapon, if they 
don't have one already, within the next 0 to 10 years? Just yes 
or no.
    Mr. Rademaker. I think the answer to that, if your 
timeframe is the next 10 years, that is the duration of this 
agreement. So really you are asking are they going to cheat on 
the agreement. I don't know. They have cheated on a lot of 
things up until now. I think they are very comfortable with 
that idea. But one thing I have suggested in my past testimony 
is that rationally this is such a good deal for them that they 
shouldn't cheat. Rationally, they should let 10 years go by and 
then if they want to break out and produce nuclear weapons, 
they can produce a much more robust, much more serious nuclear 
force very quickly than they will be able to do covertly over 
the next 10 years. So, rationally, they shouldn't cheat. 
Rationally they should take advantage of the sunset clause and 
then emerge either as a nuclear weapons state or the other--I 
mentioned this the last time I appeared here--whether they 
actually produce nuclear weapons or whether they are a 
screwdriver turn away from having them, there is an important 
legal difference between those two----
    Mr. Yoho. I have sat here for 2\1/2\ years----
    Mr. Rademaker [continuing]. You get a lot of the political 
and sort of national security advantages of having nuclear 
weapons if everybody knows you are a screwdriver turn away. So 
it is not clear to me they will necessarily go all the way. But 
if everyone knows they can do it overnight, they get treated as 
if they had nuclear weapons anyway.
    Mr. Yoho. Right.
    Mr. Doran. I will make a very clear prediction, they will 
cheat. They are cheating already. It is in their DNA. If their 
lips move, they lie. There is absolute certainty they will 
cheat. And I also think it is a rational decision to cheat. 
They want to be at odds with the world. They want to, with the 
United States and the alliances.
    Mr. Yoho. Right.
    Mr. Doran. It benefits them domestically. It benefits them 
internationally to be at odds.
    Mr. Yoho. I am a veterinarian before I came here. I will 
always be a veterinarian. There was a simple thing we learned: 
If it looks, smells, runs, and smells like a skunk, it is 
probably a skunk. And this is a deal that is a skunk. And we, 
as Americans, need to run away from it. One last question, is 
it possible to put sanctions back on? And will the P5 nations 
back us up if we wanted to sanction and say we are walking 
away, actually running away--and I would spray deodorizer 
behind us as we left--is it possible that they would stand with 
us?
    Mr. Pollack. I will answer that by saying that I think it 
will depend on the circumstances of the breakdown. If the P5+1 
believes it was the Iranians who were being unreasonable and 
that was the cause of the breakdown, yes, I think they would. 
If they conclude that it was the United States, no. I don't 
think so.
    Mr. Doran. But it is not that hard to imagine an American 
diplomacy--I agree with my colleagues on that point. I didn't 
want to suggest before that I think we should just slam the 
door, get up and walk away. We need to make a reasoned 
explanation as to why we are doing that. And we can do that 
very easily by just holding to some of the very reasonable 
proposals that we have made and that the Iranians have 
rejected.
    Mr. Rademaker. The one clarification I would add, you put 
the question in terms putting sanctions back on. The sanctions 
are still on. They have not yet been lifted. What this deal 
does is it begins to lift the sanctions.
    Mr. Yoho. With just the minimal relaxation of those, you 
have seen what they have done. And they have propped up the 
Assad regime when we thought that he was going to fall. And I 
can only think that the help from Iran with the extra money 
coming in--it was supposed to be $14 billion, now it is over 
$40 billion or $60 billion with just the relaxation--that that 
has prolonging the Syrian war, caused that many more deaths. 
And even today we hear there are more chlorine bombs being 
dropped on Aleppo. And we have a resolution and a bill to stop 
that. This is a disaster. This administration has not served 
America well, the Middle East, or world peace. I yield back.
    Mr. Wilson. Thank you, Mr. Yoho.
    We now proceed to Congressman David Trott of Michigan.
    Mr. Trott. Thank you, Mr. Chairman.
    I want to thank all the panelists for your time this 
morning. And I appreciate you sticking around for, I think I am 
the last person. I have only been here 6 months, so I get to 
ask my questions last.
    Mr. Sherman made a comment that no one in the White House 
is listening to us. I believe that is true. So, in many 
respects, this hearing is all about trying to draw attention 
through your insightful comments to the deal that is about to 
get done and draw the American public's attention to it.
    And Mr. Yoho asked my question, so I will change it a 
little bit. If a deal gets done, isn't the 30-second sound bite 
headline, ``A Done Deal: Iran Will Have a Nuclear Weapon in 10 
or 12 Years''? Isn't that the takeaway from where we are at 
today? And Mr. Yoho, he said they are going to cheat. Let's 
assume they don't cheat. So, in 12 years, they are going to 
have a nuclear weapon. Isn't that the short summary for the 
evening news?
    Mr. Makovsky. I don't think that's the summary that the 
administration will give, of course. I think that will be it. I 
would add that it is not just about Iran getting nuclear 
weapons. I think if this deal goes through, it is talking about 
now, it means a nuclear Middle East.
    Mr. Trott. I couldn't agree more.
    One of the things that baffles me, and any of the panelists 
can answer this, it would be great, I can't figure out why the 
President is continuing to pursue the deal, why he doesn't step 
away. And I don't know if it is about saving face. I don't know 
if he genuinely believes that by being nice, that that is going 
to change behavior. Or if he is just determined not to act like 
a superpower, so whatever happens in the world really shouldn't 
concern us. Why not step back? We had 367 Members of Congress 
sign a letter. Every editorial says it is a bad deal. No one 
disagrees that they are the largest sponsor of terrorism in the 
world.
    I take issue with one comment you made, Mr. Doran. They 
don't--when their lips move, they don't lie--they lie, except 
when they are saying ``Death to America.'' They mean that. So 
why not step away from this deal and say, I think everyone in 
the country would applaud the President and say: You made the 
right decision. Let's not close down discussions or diplomatic 
solutions. Let's try and find an alternative. But we can't move 
forward.
    Why is the President determined to do this deal that I can 
guarantee will be unacceptable to Congress? There is no 
question about that.
    Mr. Doran. I think it is because, I think the most 
important decision the President ever made about the Middle 
East, he made before he walked into the Oval Office, and that 
was that he was going to go down in history as the President 
who ended wars and didn't start them and that he was going to 
pull the United States back from the region generally.
    And the minute you say that your strategic goal is to pull 
back, then you run into this problem of, well, what about Iran? 
Am I still in the Iran containment business? And what about 
this nuclear program? And it puts a priority on solving that 
issue so that you don't have to be immeshed in this region 
where the challenge really isn't worth the outcome, as 
President Obama sees it.
    Mr. Trott. It is a world view you are saying?
    Mr. Doran. Yes.
    Mr. Rademaker. I would add an additional observation. As 
you may know, part of my background is in arms control. In 
addition to following the Iran issue, I followed very closely 
President Obama's negotiations with Russia on the New START 
Treaty. And I see a lot of similarities between the way he 
negotiated with Russia at the beginning of his administration 
and the way he is negotiating with Iran here at the end of the 
administration. I would just make the observation that I think 
as a negotiator, President Obama is a man who thinks that 
demonstrating goodwill will elicit reciprocation by the other 
side. And he thinks goodwill gestures on our part will be met 
by goodwill gestures. And just by demonstrating goodwill, that 
mistrust can be overcome. It is sort of a nice feel-good way to 
approach the world. And I am sure there are situations where 
that is true. But I think when you are dealing with Vladimir 
Putin, as he learned in the New START negotiations, it wasn't 
true. The Russians sensed weakness, and they tried to take 
advantage. And I think the same is true dealing with the 
mullahs in Tehran. These are not men of goodwill. These are 
very hard-nosed individuals who have an agenda.
    And I think Tom Friedman, I commend the piece to you, it is 
quoted in my testimony, the Iranians have read President Obama. 
They know he is determined to get this deal. It is now an issue 
of legacy in his mind as well. And they intend to leave 
nothing--they intend to leave absolutely nothing on the table. 
They are going to pick our pockets and then some.
    Mr. Makovsky. If I may just even step back a little more 
that Mike Doran did, I think he came into office, and this is, 
of course, speculative, believing that U.S. foreign policy for 
a long time had been a big mistake, that it had been 
counterproductive to our interest, that it had oftentimes even 
been immoral and diverted from domestic needs. So I think he 
sought to really upend, to reverse our policy in a lot of parts 
of the world, whether it is in the Middle East, or Russia, as 
Steve talked about.
    So I think what we are dealing with Iran is just the Middle 
East component of this general world view.
    I would say just one other point is that President Obama at 
least hasn't shown, that I can tell, a great capacity to learn 
and to shift policy based on--I mean, Jimmy Carter, for 
instance, very famously came into office, talked about an 
inordinate fear of communism. But after Afghanistan, he 
recognized, he shifted. I haven't seen that sense, that ability 
at least in this White House to self-reflect and to shift 
accordingly. I hope I am wrong by the way.
    Mr. Trott. So the headline will be, ``Deal Done: Iran Gets 
Nuclear Weapon in 12 Years, But Everyone Likes Us.'' Is that 
the summary?
    Mr. Makovsky. And have a nice day.
    Mr. Trott. Last question, and I am out of time.
    Dr. Pollack, so before I came here, I was in business. And 
negotiating a deal in business, it always threw up a red flag 
when the other side was so focused on what happens if we breach 
the agreement, and we cheat. What happens if we default. And 
when folks are so focused on that, then, to me, that is telling 
me that I am, you can't do a good deal with a bad guy. So they 
are focused on cheating, arguing about anytime, anywhere 
inspections, arguing about the military basis. Isn't it a given 
they are going to cheat? Isn't it a foregone conclusion that 
the deal isn't going to be worth the paper it is printed on?
    Mr. Pollack. I don't know, Congressman. I have been working 
on Iran for 28 years. The Iranians are very unpredictable.
    I will go back to a point that Steve Rademaker made 
earlier, which is that I think that there is every likelihood, 
as best we can tell now, maybe that is a better way to put it, 
in the 10 years to 15 years of the deal, it is hard to see why 
they would cheat. They have every reason not to do so. And I 
think there is a reasonable expectation that they won't. I 
think that the bigger question is about what happens after. The 
deal is in many way a bet. When I talk to the administration, 
when I----
    Mr. Trott. Pretty high-stakes bet, wouldn't you say?
    Mr. Pollack. Well, this is just it. It is an unknowable 
bet. The bet that the administration is taking is that in 10 or 
15 years, we will have a kinder, gentler Iran. And they can 
point to evidence suggesting that this could happen. The people 
of Iran want to move Iran in a very different direction. It is 
plausible. It is just as plausible that we won't get that 
kinder, gentler Iran. And that is the bet we are taking.
    Mr. Trott. And I appreciate all of your time. And I will 
just close with I hope the bet doesn't result in Iran having an 
intercontinental ballistic missile that will be able to hit the 
President's library in Chicago.
    Mr. Pollack. Amen.
    Mr. Wilson. Mr. Trott, thank you very much for your fresh 
freshman approach.
    And I want to thank each of the witnesses for being here 
today. I am really grateful that Chairman Ed Royce and Ranking 
Member Eliot Engel were able to put this together. We can 
certainly see extraordinary concern about policies of moral 
relativism and concern about what we are facing.
    At this time, we shall be adjourned.
    [Whereupon, at 12:40 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
         

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
